                                              EMPLOYMENT
                                              STANDARDS
                                              ADMINISTRATION
Office of Inspector General—Office of Audit




                                              ENERGY EMPLOYEES OCCUPATIONAL ILLNESS
                                              COMPENSATION PROGRAM - DOL COULD DO
                                              MORE TO ASSIST CLAIMANTS AND FURTHER
                                              IMPROVE TIMELINESS




                                                                        Date: November 12, 2008
                                                               Report Number:   04-09-002-04-437
U.S. DEPARTMENT OF LABOR
Office of Inspector General                            November 2008
Office of Audit

                                                       WHAT OIG FOUND
BRIEFLY…                                               DOL’s decisions to accept or deny claims reviewed
Highlights of Report Number: 04-09-002-04-437,         in our sample complied with applicable Federal law
Energy Employees Occupational Illness                  and regulations. The decisions were based on the
Compensation Program – Changes Needed to               evidence provided by or attained on the behalf of
Further Improve Claimant Services and                  claimants and followed a deliberative process with
Timeliness, to the Assistant Secretary for             several layers of review to ensure that claims were
Employment Standards, dated November 12,               substantiated or properly denied. The allegations
2008.                                                  raised by a former claims examiner that claims
                                                       examiners had been directed to inappropriately
WHY READ THE REPORT                                    deny claims were not corroborated. However,
Congress passed the Energy Employees                   while decisions reviewed were well documented,
Occupational Illness Compensation Program Act          we found that DOL could more effectively use its
(Energy Employees Act) to provide timely, uniform,     Resource Centers by having the Centers work with
and adequate compensation to civilian men and          claimants at the time the application is taken to
women suffering from cancer and other illnesses        obtain medical and employment documentation
incurred as a result of their work in the nuclear      required to substantiate their claim and to explain
weapons production and testing programs of the         survivor eligibility criteria.
Department of Energy (DOE) and its predecessor
agencies. In passing the Energy Employees Act,         We also found that DOL has made strides in
Congress recognized that many of these                 reducing the processing time of claims for the
employees were unknowingly exposed to and              portion of the process controlled by DOL.
inadequately protected from radiation, beryllium,      Nonetheless, we noted several areas where DOL
silica, and other toxic materials at DOE facilities.   could improve its procedures to further reduce
                                                       processing time, including the use of new methods
Since the program began in 2001, through               to obtain claimant information and developing
September 2, 2008, the Department of Labor             more detailed interagency agreements with other
(DOL) reported that it had received 167,498            agencies involved in the process.
claims, approved slightly more than 39 percent of
those claims, and paid nearly $3.9 billion in          Finally, the timeliness of adjudicating claims from
compensation.                                          the viewpoint of the claimant – how long it takes
                                                       from the time they apply for benefits to reaching a
WHY OIG CONDUCTED THE EVALUATION                       final decision – needs to be measured and
In response to inquiries from several members of       reported to show how well the Energy program is
Congress and the public, we conducted an               serving claimants, rather than solely measuring
evaluation to: (a) determine if DOL issued claim       how long a claim is at DOL.
decisions that complied with applicable law and
regulation and (b) assess whether DOL ensures          WHAT OIG RECOMMENDED
that claims are adjudicated as promptly as             We made six recommendations to the Assistant
possible and that claimants are kept informed. We      Secretary for Employment Standards designed to:
also assessed the validity of allegations from a       further reduce the time required to process claims,
former claims examiner that claims examiners had       better utilize Resource Centers, and increase
been directed to inappropriately deny claims.          contact with claimants to keep them informed of
                                                       the status of their claim.
READ THE FULL REPORT
To view the report, including the scope,               ESA disagreed with our conclusions regarding the
methodology, and full agency response, go to:          timeliness of the program in adjudicating claims,
                                                       but did concur with most of the recommendations
http://www.oig.dol.gov/public/reports/oa/2009/04-      and, in some cases, already has efforts underway.
09-002-04-437.pdf
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                                       Report No.04-09-002-04-437
                                                      U. S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Objective 1 – Did DOL issue claim decisions that complied with applicable law
              and regulations? ................................................................................ 15
         DOL Decisions Complied with Federal Law and Regulations............................. 16
         Need to Better Educate Claimants at the Point of Application ............................ 19
         Allegation of Direction to Summarily Deny Claims Not Corroborated ................. 21

Objective 2 — Does DOL ensure that claims are adjudicated as promptly as
              possible and claimants are kept informed?..................................... 21
         Need to Establish Better Measures of Timeliness .............................................. 24
         Need to Better Utilize Resource Centers............................................................ 25
         Need Improvements in Obtaining Claimant Information through
                 Comprehensive Interagency Agreements and Better Collection
                 Processes ............................................................................................ 26
         Need a Comprehensive Tracking System to Facilitate Workload
                 Management ........................................................................................ 29
         Need Increased Communication with Claimants ................................................ 31

Recommendations ...................................................................................................... 31

Exhibits              ............................................................................................................. 33
         Exhibit 1 Claims Development and Adjudication Process .................................. 35
         Exhibit 2 DEEOIC Claim Forms EE-1 Energy Employee Claim Form ................ 39
         Exhibit 3 DEEOIC Timeliness Goals Trends 2007.............................................. 45

Appendices            ............................................................................................................. 49
         Appendix A Background ..................................................................................... 51
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 55
         Appendix C Acronyms and Abbreviations .......................................................... 61
         Appendix D Glossary of Terms........................................................................... 63
         Appendix E Agency Response to Draft Report................................................... 67




                                                                                           Energy Employee Compensation
                                                                                              Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                                       Report No.04-09-002-04-437
                                    U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




November 12, 2008

                       Assistant Inspector General’s Report



Ms. Victoria A. Lipnic
Assistant Secretary for Employment Standards
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

In response to requests from Senator Charles Schumer (D-NY) and Congressman C.W.
“Bill” Young (R-FL) and inquiries from several members of Congress and the public as
to whether claims are appropriately adjudicated, the Office of Inspector General (OIG)
conducted an evaluation of the Energy Employees Occupational Illness Compensation
Program. Specific concerns centered on whether the Department of Labor (DOL)
inappropriately denied claims and whether decisions were timely. We also received
allegations from a former claims examiner that claims examiners had been directed to
inappropriately deny claims, and that 85 to 90 percent of claim files contained errors.

OBJECTIVES

We conducted an evaluation of the program’s compliance with the Energy Employees
Act. Our objectives were to answer the following questions:

   1. Did DOL issue claim decisions that complied with applicable law and regulation?

   2. Does DOL ensure that claims are adjudicated as promptly as possible and that
      claimants are kept informed?

SCOPE

Our evaluation covered the period October 1, 2005, through June 30, 2007. In addition,
we reviewed specific claims covering the period November 2006 to November 2007, as
part of our review of the allegations by the former claims examiner. During the period
covered by our review, DOL reported that it issued decisions on 60,624 claims (20,309
accepted) and paid a total of $1.33 billion in compensation.

Our evaluation was conducted in accordance with Quality Standards for Inspections
published by the Presidents Council on Integrity and Efficiency.



                                                                      Energy Employee Compensation
                                            1                            Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General



METHODOLOGY

To determine if DOL issued claim decisions that complied with applicable law and
regulation, we reviewed a stratified random sample of 140 claims that received final
decisions or were administratively closed from October 2005 through June 2007. Our
review of claims decisions covered all functions performed by DOL to develop and
adjudicate the claims. Although our review included the results of dose reconstructions
developed by NIOSH, we did not review how NIOSH developed the dose
reconstructions.

To assess whether DOL effectively communicated with claimants regarding the status
of their claims, we reviewed 42 claims still pending a decision to determine how well
DOL kept claimants informed of the status of their claims and how well DOL worked
with the claimants to develop the necessary evidence to support their claim. In addition,
we reviewed the adjudication process to determine if objections were filed by claimants
and the impact of the objections on final decisions.

To determine the validity of allegations raised by the former claims examiner, we
interviewed 3 individuals that the former claims examiner indicated could corroborate
her allegations, as well as 7 others who worked in the Seattle District Office. We also
reviewed 41 claims that the complainant was instrumental in developing decisions.
Finally, we reviewed 5 specific claims that were alleged to have been decided wrongly.

To determine whether claims were processed and paid in a timely manner, and reasons
why timeliness goals were not met, we analyzed DOL's timeliness measures and
reviewed 42 claims with a recommended, but no final decision; 48 claims transferred
from the Department of Energy (DOE); and 123 claims accepted but awaiting payment.

For further discussion of the methodology, including sampling procedures, see
Appendix B.

RESULTS IN BRIEF

Based on our review, we found that the claims decisions issued by DOL were based on
evidence supplied by or obtained on behalf of claimants and complied with applicable
law and regulations. However, while decisions reviewed were well documented, we
found that DOL could do more to effectively use its Resource Centers by having the
Centers work with claimants at the time the application is taken to explain basic
program requirements and obtain medical and employment documentation required to
substantiate their claim. We found that 61 percent of claims (55 percent of Part B
claims and 69 percent of Part E claims) were denied due to insufficient evidence to
substantiate a diagnosed illness, not meeting the employment requirements, or failure
to meet eligible survivor criteria. Claimants are responsible for proving their claim;
however, DOL has a responsibility under the Act to assist them. Although the elapsed
time to process a claim has been significantly shortened since the inception of the


                                                              Energy Employee Compensation
                                            2                    Report No.04-09-002-04-437
                                       U. S. Department of Labor – Office of Inspector General


program, it can still take as much as 2 years or more. We believe to further reduce the
processing time DOL can and should do more to assist claimants in developing their
claims and better educating applicants on general program requirements.

The allegations raised by a former claims examiner within the Division’s Seattle District
Office that claims examiners had been directed to inappropriately deny claims, and that
85 to 90 percent of claim files contained errors, were not corroborated. Our review of
claims handled and interviews with current and former co-workers in the Seattle District
Office did not corroborate any of complainant’s allegations. Claims examiners stated
they were never told to summarily deny a claim and claims were only denied after
following the appropriate procedures. We found that the Division of Energy Employees
Occupational Illness Compensation (Division) properly adjudicated these claims in
compliance with the law and regulations, and the decisions were adequately supported
with required evidence.

Since the program’s inception, the average processing time from application to final
decision for both Part B and E claims combined has been more than three years.
However, DOL has made significant improvements in reducing the processing time as
well as eliminating the backlog of DOE claims. In addition, DOL has taken steps to
provide more focus on timely processing through the establishment and tracking of 20
timeliness goals for claims processing activities within DOL. While processing time has
been reduced, the claims process is still lengthy and it may still take up to 2 years or
more to process and adjudicate a claim. We identified several areas where
improvements can be made that may further reduce claims processing time from
application to final decision.

DOL needs to establish an overall measure of the time it takes from application to final
decision and payment to present a complete picture of how well the program is serving
the claimants. Since program responsibilities are divided among several agencies,
there is currently no single measure that covers the entire life cycle of a claim. In
addition, as the processing goal for initial development of a claim was nearly a year in
2007 (and almost 9 months in 2008), greater emphasis and measurement of interim
milestones for major activities during the initial processing phase could lead to reduced
claims processing time overall.

Better education of applicants at the point of application regarding program eligibility
requirements and the collection of medical/employment documentation would help
claimants better determine if they could be eligible and what is required to establish
their eligibility. Greater emphasis and assistance to applicants upfront could also
minimize the time required later in the process to gather documentation to support
eligibility.

DOL needs interagency agreements with Federal and non-Federal agencies that are
sufficiently detailed for the process of obtaining information to assist in the verification of
claimant information. In addition, DOL initial claim processes for obtaining information
required to verify employment eligibility or obtain medical records are inefficient, time


                                                                 Energy Employee Compensation
                                               3                    Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General


consuming, and result in inconsistent and untimely processing of information needed to
develop claims.

DOL lacked an effective system for tracking claims at other agencies and for monitoring
and managing the workloads of claims examiners. The Division did not track the status
of more than 7,000 claims awaiting the completion of dose reconstructions at NIOSH,
including 1,248 claims that had been at NIOSH for 2 years, and 683 for more than 5
years. As a result, DOL was not aware that NIOSH had administratively closed claims
because the claimants had failed to return the notice allowing NIOSH to release the
dose reconstruction results. Since DOL was unaware of the closure action taken by
NIOSH, they did not notify claimants of their right to object. Although NIOSH notifies
claimants as it processes their claims, DOL is also responsible for notifying claimants of
their right to object. A comprehensive tracking mechanism for claims would allow
greater oversight of claims in process and better management of resources for claims
processing. It would also help DOL keep claimants better informed of the status of their
claims.

DOL could do more to communicate with claimants to keep them informed of the status
of their claim. For the claims we reviewed, DOL generally notified claimants when
required by its internal policies, but due to the lengthy claim development process, there
were often significant periods of time without communication. More frequent updates
could reduce the stress and anxiety placed on claimants, many who are ill, and their
families who are unsure about efforts being made to process their claim.

ESA RESPONSE

In its response to our draft report, ESA stated that it agreed with our finding that
EEOICP's decisions are based on evidence and in accord with the law and
implementing regulations, and specifically that a former claims examiner's allegations
were without merit. However, ESA did not concur with conclusions regarding the
timeliness of processing of claims. ESA took exception to our analysis that included
processing time at NIOSH for dose reconstruction in an overall evaluation of the
timeliness of the program in adjudicating claims, because DOL has no authority or
control over NIOSH. Further, ESA believed that we did not give enough credit to its
efforts to expedite claims, the trends in timeliness, or the history of the program's
evolution.

ESA recognized its role as "lead agency" for the program, but responded that we
misconstrued the relationship between EEOICP and NIOSH in that NIOSH has
independent legal authority and responsibility for its portion of the Act. While ESA
conceded that NIOSH outcomes feed into EEOICP process for affected cases,
"… attempting to incorporate the time spent at NIOSH into DOL's timeliness goals
would vastly distort the information and so overwhelm the time at DOL as to render the
goals useless as a measurement of DOL's efforts." ESA went on to state that "… had
the EEOICP focused on attempting to reduce the overall duration of cases, including the
NIOSH duration, progress (or lack of it) against that goal would have had no relationship


                                                              Energy Employee Compensation
                                            4                    Report No.04-09-002-04-437
                                       U. S. Department of Labor – Office of Inspector General


to the EEOICP's timeliness efforts, and the global measure would not have any bearing
on the effectiveness of our efforts to improve our own procedures." Finally, in regards
to an overall measure, ESA stated "DOL can compute overall case durations, but they
would have little or no operational utility as GPRA or operational goals absent a
restructuring of the program by legislation."

ESA also did not concur with our recommendation to expand the Resource Centers'
responsibilities to include helping claimants obtain evidence to support their claim and
better educate claimants on requirements for eligibility.

We have incorporated ESA's response in applicable sections of the report, and its
complete response is included as Appendix E of this report. We also made other
changes to the report as a result of ESA’s response.

OIG CONCLUSION

We acknowledge that ESA has made strides in reducing the processing time of claims
for the portion of the process controlled by DOL. We also acknowledged that the
Energy program is challenging to administer and by its nature requires time to
adjudicate claims. Nonetheless, we noted several areas where we believe ESA could
improve its procedures to further reduce processing time. ESA responded that they
concurred with most of our recommendations and in some cases already have efforts
underway. We did not conclude nor recommend that ESA discontinue any of its
existing measures to track timeliness of claims, as ESA seems to imply in its response.
Rather, we noted that the timeliness of adjudicating claims from the viewpoint of the
claimant—how long it takes from applying for benefits to reaching a final decision,
regardless of how many Federal agencies are involved—is not being measured or
reported. We continue to believe that this is an important and appropriate measure of
the success of the Energy program. Moreover, to only report measures on incremental
processes in the absence of any measure of the overall timeliness of claims processing
is misleading. Finally, it was not our intent to have the Resource Centers adjudicate
claims. However, we do believe the Resource Centers could do more to educate
claimants as to program eligibility and documentation requirements that would benefit
the claimants as well as the program. We have clarified that section of the report and
recommendation accordingly.

                                      – – – – – – –

The Energy Employees Occupational Illness Compensation Program is a complex,
multi-billion dollar benefit program administered by the Department of Labor, with the
input, assistance and determinations of three other major Federal agencies and a
Federal advisory board. Understanding our results, findings, and recommendations
requires an understanding of the legislative design; the complex regulatory
requirements in establishing eligibility; and the inherent difficulty in meeting the latter
due to the passage of time, unavailability of employment and other records, and the
inability of sick, often aging, claimants to fully understand their rights and responsibilities


                                                                 Energy Employee Compensation
                                               5                    Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


in the claims process. The background section that follows summarizes the complex
structure and requirements of the program.

BACKGROUND

Congress passed the Energy Employees Occupational Illness Compensation Program
Act (Energy Employees Act) to provide timely, uniform, and adequate compensation to
civilian men and women suffering from cancer and other illnesses incurred as a result of
their work in the nuclear weapons production and testing programs of the Department of
Energy and its predecessor agencies. Department of Labor and Health and Human
Services regulations implement the program and it is administered by the DOL’s
Division of Energy Employees Occupational Illness Compensation within the Office of
Workers’ Compensation Programs. In passing the Energy Employees Act, Congress
recognized that many of these employees were unknowingly exposed to and
inadequately protected from radiation, beryllium, silica, and other toxic materials at DOE
facilities.

The Energy Employees Act requires DOL to assist claimants and potential claimants in
securing medical testing and diagnosis services, and to develop the facts pertinent to
their claim. DOL is required to adjudicate claims and justify its decisions to accept or
deny claims based on its analysis and verification of employment history, exposure,
medical diagnosis, and the probability that worksite conditions caused the claimant’s
illness. While DOL is required to help claimants develop their claims, the program
regulations provide that, except as specifically provided for in the Act or the regulations,
the claimant bears the burden of “proving by a preponderance of the evidence the
existence of each and every criterion necessary to establish eligibility.” If a claimant
does not provide the necessary employment and medical evidence and if such evidence
does not establish a causal link to the person’s illness, DOL must deny the claim. DOL
is required to communicate with claimants during the processing of their claim to inform
them of the status of their claim, offering them opportunities to provide additional
information to support their claim, and inform them of their rights to object to findings of
facts and claims decisions.

DOL has an extensive system of claims development, adjudication, and due process to
afford claimants multiple opportunities to establish a claim or object to findings of facts
or decisions regarding their claim. Neither the Act nor the program regulations stipulate
a time certain for completing all steps in the claims development and adjudication
process. The regulations do provide certain minimum timeframes for 3rd parties to verify
employment or provide other information to support a claim (90 days) and time limits for
claimants to object to a decision (60 days). The claims development and adjudication
process is inherently time consuming, due to the nature of the work that must be
performed to develop and verify the facts of a claim, as well as the multiple
opportunities afforded to claimants to voice objections and provide additional
information.

Since the program began in 2001, through September 2, 2008, DOL had received
167,498 claims, and issued decisions to approve or deny benefits on nearly 82 percent

                                                               Energy Employee Compensation
                                             6                    Report No.04-09-002-04-437
                                           U. S. Department of Labor – Office of Inspector General


of these claims. DOL had approved slightly more than 39 percent of claims and paid
nearly $3.9 billion in compensation. The Energy Program’s Fiscal Year (FY) 2007
operating budget for administrative costs was $170.4 million.

Eligibility and Benefits

Various Federal agencies are involved in processing and adjudicating claims. The DOL
administers those parts of the Energy Employees Act that provide compensation and
medical benefits—Parts B and E. Claims may be paid under Parts B and E as follows:

    •   Part B generally provides compensation in the form of a $150,000 lump-sum
        payment and/or medical benefits to employees of DOE, its contractors,
        subcontractors or eligible survivors, who are diagnosed with radiation-induced
        cancer, chronic beryllium disease, or silicosis.

    •   Part E1 provides compensation to employees of DOE contractor and
        subcontractors for lost wages, impairments, and medical expenses who became
        ill due to exposure to radiation or to any biological or toxic substances, such as
        chemicals, acids, and metals that could potentially cause illness or death.

See Table 1 for a comparison of Part B and Part E eligibility and benefits.




1
 Part E was created in the 2004 amendment that abolished Part D of the 2000 Employee Energy Act.
This resulted in more than 25,000 Part D claims being transferred to DOL for processing under the new
Part E. This created an immediate backlog of Part E claims.

                                                                       Energy Employee Compensation
                                                   7                      Report No.04-09-002-04-437
                                            U. S. Department of Labor – Office of Inspector General




                                     Table 1
             Comparison of EEOICPA Parts B and E Eligibility and Benefits

     Program            Covered Employees               Diagnosed Illness                 Benefits

                        DOE employees                   Radiation-induced        $150,000 lump-sum
                                                          cancer, chronic           payment
                        DOE contractors or               beryllium disease,       $50,000 (if awarded
                         subcontractors                   silicosis, beryllium      payment under reca
Part B                                                    sensitivity               section 5)
                        Employees of atomic                                       Medical expenses
                         weapons employers                                         Beryllium sensitivity—
                                                                                    medical monitoring
                        Employees of beryllium                                     only
                         vendors

                        Uranium miners, millers,
                         and ore transporters
                         awarded under reca
                         section 5
                        Eligible survivors2

                        Contractor and                  Illness due to           Up to $250,000 for lost
                         subcontractor                    exposure to toxic         wages and impairment
                         employees of doe-                substance                Medical expenses
Part E                   covered sites
                        Uranium miners,
                         millers, and ore
                         transporters covered
                         under reca section 5
                        Eligible survivors3
           Source: Energy Employees Occupational Illness Compensation Act of 2000 as amended




 2
   The Energy Employees Act defines Part B survivors as the next of kin.
 3
   The Energy Employees Act defines Part E eligible survivors as the covered spouse who was married at
 least one year immediately before the employee’s death and a covered child who had not attained the
 age of 18 years, had not attained the age of 23 and a full-time student who had been continuously
 enrolled or had been incapable of self-support.

                                                                          Energy Employee Compensation
                                                    8                        Report No.04-09-002-04-437
                                          U. S. Department of Labor – Office of Inspector General


Dose Reconstruction and Special Exposure Cohorts (SECs)

To issue decisions related to Part B, the Energy Employees Act requires DOL to use a
scientifically-approved method to estimate radiation exposure. The National Institute for
Occupational Safety and Health (NIOSH)4 calculates this estimate–dose
reconstruction–based on information on the radioactive agents within a facility, and the
employee’s contracted cancer, occupation, work locations, and length of employment at
the DOE facility.

The Energy Employees Act further designated employees from 4 sites5 as Special
Exposure Cohorts (SECs) and eligible for Part B compensation. SECs cover classes of
employees at any DOE facility who likely were exposed to radiation at that facility but for
whom it is not feasible to estimate with sufficient accuracy the radiation dose they
received. Employees covered by an SEC only need to prove they worked at the facility
and that they have a certain type of cancer to be eligible for compensation under the
Program. The Energy Employees Act includes provisions for other groups of
employees to petition the Secretary of Health and Human Services (HHS) to be
designated as SECs if they believe there is insufficient information to reasonably
perform a dose reconstruction to estimate radiation exposure. The Act requires HHS to
evaluate the petitions and determine if it is feasible to estimate with enough accuracy
the radiation dose that employees at these sites received. Based on this review, HHS’s
recommendation requires presidential approval to accept or deny the petition. As of
August 30, 2008, 30 classes of employees had been approved as a SEC, allowing
individuals associated to qualify for compensation and medical benefits.

The designation of a SEC causes an immediate increase in the number ofclaims to be
processed by DOL, as many previously decided claims must be reconsidered under the
SEC criteria. For example, on October 12, 2007, 6 SECs were approved. As a result,
DOL reconsidered 1,949 previously filed claims. The demands resulting from such a
large number of claims can cause delays in overall claims processing time.

DOL’s Role in Issuing Decisions to Accept or Deny Claims for Compensation

DOL is responsible for determining the eligibility of employees and their survivors for
compensation and benefits. Under both Parts B and E, DOL’s decision to accept or
deny a claim is based on a determination of whether:

       Part B . . . the cancer was at least as likely as not related to radiation
       exposure during employment.



4
  NIOSH is an agency within the Centers for Disease Control, U.S. Department of Health and Human
Services.
5
  The four sites were the gaseous diffusion plants located at Paducah, Kentucky; Portsmouth, Ohio;
Oak Ridge, Tennessee and Amchitka Island, Alaska (exposed to ionizing radiation related to underground
nuclear tests).

                                                                      Energy Employee Compensation
                                                  9                      Report No.04-09-002-04-437
                                    U. S. Department of Labor – Office of Inspector General


      Part E . . . the illness is at least as likely as not that exposure to a
      toxic substance was a significant factor aggravating; contributing to,
      or causing the illness during covered employment.

The Division requests information related to the claimant’s medical records and
employment, often from other Federal agencies, before making a decision to approve or
deny compensation and benefits. Claims development is accomplished by 4 District
Offices located in Cleveland, OH; Denver, CO; Jacksonville, FL; and Seattle, WA.
Claims adjudication is performed by the Final Adjudication Branch (FAB) that is co-
located with each District Office and in Washington, D.C. The FAB is independent to
the Districts and validates the District’s claims development and recommended
decisions before issuing final decisions. The FAB also evaluates claimants’ objections
and may conduct hearings to determine if the claim is ready for a final decision. The
Division contracts for operations of the 11 Resource Centers that perform outreach
functions and receive claim applications. Various other Federal agencies are involved
in claims processing and adjudication.

Role of Non-DOL Agencies and Consultants

The Energy Employees Act recognized the need for outside (non-DOL) experts and
agencies to assist in the implementation of both Parts B and E. These include the
Departments of Energy, Justice, and Health and Human Services; the Advisory Board
on Radiation and Worker Health; and the Social Security Administration.

In addition, the Energy Employees Act authorized the use of physicians in evaluating
and determining the extent of permanent impairments, and whether the exposure to a
toxic substance aggravated, contributed to, or caused the death or illness.

Chart 1 highlights the role of the non-DOL agencies in processing Energy Employees
Act claims.




                                                             Energy Employee Compensation
                                          10                    Report No.04-09-002-04-437
                                                       U. S. Department of Labor – Office of Inspector General


                                    Chart 1
           Federal Agencies’ Responsibilities in EEOICP Claims Processing



             Health and Human          Department             Department
                   Services                                                      Advisory Board           Social Security
                                           of                      of             on Radiation
                    (HHS)                Energy                 Justice                                   Administration
                                                                                  and Worker
             (including NIOSH)           (DOE)                   (DOJ)                                        (SSA)
                                                                                     Health



              Responsibilities:      Responsibilities:      Responsibilities:    Responsibilities:        Responsibilities:
               Uses worker or        Provides              Attorney General    Advises                 Provides, upon
              worksite monitoring    Secretary of HHS       adjudicates claims   Secretary of HHS         written request,
              information from       and the Advisory       under the            on scientific validity   Social Security
              DOE to provide         Board with access      Radiation            and quality of dose      earnings
              data on amount of      to information and     Exposure             reconstruction           information of living
              radiation workers      other technical        Compensation Act     efforts performed;       or deceased
              were exposed to        assistance.            (RECA). If           whether there is a       employees.
              while performing        Requires DOE         approved,            class of
              their duties at a                             claimants also       employees—
                                     contractors,
              particular worksite.                          eligible for         Special Exposure
                                     subcontractors or
               NIOSH develops                              supplemental         Cohort—at any
                                     designated
                                                            compensation and     DOE facility who
              site profiles and      beryllium vendor to
                                                            benefits under the   were exposed to
              evaluates Special      provide information
                                                            Energy Employees     radiation, but for
              Exposure Cohort        relevant to claims.
                                                            Occupational         whom it is not
              (SEC) petitions.        Provides             Illness              feasible to estimate
                                     Information
                                              ’ of a        Compensation         their radiation dose
                                     Claimants              Program.             on whether there is
                                     Employment at a                             a reasonable
                                     DOE covered                                 likelihood that such
                                                                                 radiation dose may
                                     facility .
                                                                                 have endangered
                                                                                 the health of
                                                                                 members of the
                                                                                 class.




                          Source: OIG analysis of EEOICPA and Executive Order 13179

Claims Development and Adjudication

The Division’s claims development and adjudication process is designed to give the
claimant multiple opportunities to provide DOL with the required information related to
their employment and diagnosed illness. Additionally, the Division obtains and reviews
reports and medical information from agencies and consultants outside DOL in order to
substantiate claims. Claimants may ask for a hearing, request a re-opening of their
claim, or object to a decision. The process for developing and adjudicating claims
includes the following steps:

      - Claim Initialization - Application
      - Eligibility Determination
      - Causation Determination
      - Claim Adjudication

Chart 2 shows the exchange of information needed with other agencies in order to
determine eligibility and whether the illness was linked to DOE employment-related toxic
exposures.




                                                                                          Energy Employee Compensation
                                                             11                              Report No.04-09-002-04-437
                                                U. S. Department of Labor – Office of Inspector General


                                      Chart 2
           Federal Agencies and non-Federal Entities Information Exchange

                                                               Energy
                                                               Provides:

                                                                  Employment dates
                                                                  Employment locations
                                                                  Health records
                                                                  Exposure records
                                                                  Accident reports
                                                                  List of toxins in work areas   Establishes
                                                                                                  eligibility criteria

                                                               Justice
     Claimant                 OWCP                             Adjudicates RECA
     Provides:                Responsible for:                 claims for supplemental
                                                               payments under
                                                               EEOICPA
      Employment              Administering Program
       documentation           Determining if claimant
      Medical diagnosis        meets eligibility
      Survivor eligibility     requirements                   HHS
       documentation           Adjudicating claims            (NIOSH)
                                                               Develops - site profiles           Establishes
                                                               Provides                           causation
                                                                - Dose Reconstruction
                                                               - SEC Determinations

                                                               District Medical
                                                               Consultants


                                           Source: OIG analysis of EEOIPCA

Throughout all phases, the Division must communicate with other Federal and non-
Federal agencies, medical consultants, and the claimant to obtain required information.
The Division uses the information to develop the claimants’ employment and medical
evidence as a basis for determining the claimant’s eligibility for compensation and
benefits.

The Division obtains information from the claimant and the Departments of Energy and
Justice to help establish program eligibility. To determine if the claimed illness is as
likely as not related to or aggravated by exposures to radiation or toxic substances
during DOE employment, the Division uses the claimant’s medical diagnosis and
information developed by NIOSH, medical consultants, claimant’s treating physician,
certified toxicologists, industrial hygienist and web-based information using research
from recognized medical authorities maintained by the National Library of Medicine.




                                                                                Energy Employee Compensation
                                                          12                       Report No.04-09-002-04-437
                                                          U. S. Department of Labor – Office of Inspector General


Chart 3 shows the Division’s development and adjudication processes. A detailed
discussion of the claims development and adjudication process is included at Exhibit 1.


                                  Chart 3
    The Energy Employees Act Claims Development and Adjudication Process

                  Submit Claims                    Mail        Resource                Online
                                                                Centers


                  Determine Eligibility              4 DOL OWCP District
                                                     Offices Develop Claims




                                                                                                           Claimant
                           Verify             Survivor/Dep.                                                provides
                                                                         Document            Exchange of
                         employment             Eligibility                                  Information    addt’l
                                                                         diagnosed
                                              Determination                                                support
                                                                           illness




                    Part B
                                      Determine                                         NO                             Part E
                                                                                                 Issue
                                      Causation                       Sufficient
                                                                                             Recommended
                                                                     evidence to
                                                                                               Decision
                                                                      establish
                                                                      eligibility?                                    Verify Toxic
                                                                                                                       Exposure
                     NIOSH performs
                                                                       YES




                    Dose Reconstruction
                          (DR)

                                                                                                              Multiple sources
                                                              District Office issues                        used to establish link
                                                              Recommended                                   between illness and
                                                              Decision (RD)                                   toxic substances




                     Adjudicate Claims
                                                          Final Adjudication           Appeal
                                                                                       written     Claimant
                                                            Branch (FAB)
                                                                                       Review     (Reviews RD)
                                                          Reviews Recommended
                                                                 Decision
                              FAB may remand/                                                 If RD is
                              send back claim to                                          sufficient, FAB
                                DO for further                                             Issues Final
                                development                                                  Decision



                       Source: OIG analysis of information from EEOICPA and DEEOIC.

The process starts when the employee or their survivor(s) files a claim6 with a District
Office or Resource Center.7 The centers conduct outreach, receive claim applications,
and initiate actions to verify employment. Resource Centers forward claims received to
the District Offices for development.

Once the District Office receives a claim, work begins to determine the employee’s
eligibility. Staff requests information from the claimant to verify employment, evidence
of a diagnosed covered illness, and survivor eligibility.


6
 Examples of the claims forms are in Exhibit 2, pages 35-39.
7
 The 11 contract-operated Resource Centers are located in areas with a high density of former DOE
employees. See page 49 for a list of the Resource Centers and their locations.

                                                                                                                 Energy Employee Compensation
                                                                        13                                          Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General


After the District Office has established that the claimant meets the employment criteria
and has a covered illness, it requests and reviews additional information from NIOSH,
medical consultants, the claimant’s treating physician, certified toxicologists, and
industrial hygienists, as well as web based information regarding the relationship
between the illness and toxic substances, to determine if the illness was a result of
exposure to radiation or toxic substances during DOE employment. NIOSH provides
the results of dose reconstruction to help DOL evaluate Part B cancer claims. Using
available worker workplace monitoring information, NIOSH scientifically estimates the
amount of occupational radiation to which DOE workers were exposed. If workplace
data are unavailable, NIOSH uses default values based on scientific assumptions as
substitutes that overestimate exposures. Dose reconstructions are not required when
assessing Part E claims to determine if there is a link between toxic exposures and the
diagnosed illnesses.

Based on their review of this information, District Office claims examiners decide if the
exposure was determined to have caused or aggravated the illness, as required by the
Act. The examiners forward their assessment to a manager who issues a
recommended decision to accept or deny the claim.

District Offices notify the claimant and the Final Adjudication Branch (FAB) of the
recommended decision. For denials, claimants have 60 days from the date the District
Office issued the recommended decision to object by requesting a formal hearing or
review of the claim. The FAB then reviews the recommended decision and the
claimant’s objections, if any. If the decision is in compliance with program guidance,
supported by evidence, and the objection (if filed) did not provide new information, the
FAB issues a final decision. If the claimant provides new evidence, the FAB may return
the claim to the DOL for additional development or may accept the claim based on the
new evidence.

Claims Activity

As detailed in Table 2, DOL reported that since the inception of the program in 2001,
workers, or their survivors, have filed 167,498 claims for compensation and medical
costs. DOL has issued final decisions on 136,549 claims (82 percent).




                                                              Energy Employee Compensation
                                            14                   Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


                                       Table 2
                   DOL Program Statistics on Final Decisions Issued
                             (as of September 2, 2008)




Claim     Total     Pending   Claims with
Type     Claims       or         Final
                    Closed     Decisions      Denied      Accepted     Total Compensation Paid

Part B   92,696      15,950     76,746        42,281        34,465             $ 2.6 billion

Part E   74,802      14,999     59,803        41,373        18,430             $ 1.3 billion

 Total   167,498     30,949     136,549       83,654        52,895             $ 3.9 billion
                              Source: EEOICPA Program Statistics

The Division publishes an annual Operations Plan establishing program goals and
objectives with respect to the adjudication of claims. Program objectives are measured
in terms of workload and timeliness. While the number of claims received annually is
declining, program liability studies have found that energy employee claims will continue
to be filed through 2025.


RESULTS AND FINDINGS

Objective 1 – Did DOL issue claim decisions that complied with applicable law
              and regulations?


The Department of Labor’s decisions to accept or deny claims reviewed in our sample
complied with applicable Federal law and regulations. The decisions were based on the
evidence provided by or attained on the behalf of claimants, and followed a deliberative
process with several layers of review to ensure that claims were substantiated or
properly denied. DOL afforded claimants their rights to review and object to decisions.
DOL’s decisions to administratively close claims were appropriate; claims were closed
because the claimant died, withdrew the claim, or left no forwarding address.
Furthermore, we reviewed allegations received during the course of the evaluation that
claims were being summarily denied based on DOL management guidance and found
no evidence that DOL arbitrarily denied claims or had any policy to that end. While we
found that decisions were supported, better education of applicants at the point
application regarding program eligibility requirements and the collection of
medical/employment documentation would help claimants determine if they could be
eligible and what is required to establish their eligibility.




                                                                   Energy Employee Compensation
                                             15                       Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


DOL Decisions Complied with Federal Law and Regulations

We found that DOL decisions were based on the evidence provided by claimants and
complied with Federal law and regulations. We reached this conclusion after reviewing
files for a stratified random sample of 140 claims, of which 32 percent were accepted,
36 percent were denied, and 32 percent were administratively closed. Claim file
documentation supported each of DOL’s decisions. The Division pursued several
sources of information to help the claimant establish eligibility, and submitted the
evidence to multiple levels of review, as required.

We found that claim files contained the evidence necessary to adjudicate the claims.
Such evidence included: medical documentation or death certificates showing diagnosis
of an illness; NIOSH dose reconstruction results; medical consultant reports;
employment verification reports; and birth and marriage certificates. When the Division
accepted a claim, the file showed Division personnel validated the following program
requirements: diagnosis of illness; employment records substantiating DOE
employment; a determination of causation linking the illness to toxic exposures; and
survivor eligibility. When the Division denied a claim, we found that a claim lacked
support for one or more of these requirements.

Additionally, we verified that the Division followed a deliberative process to ensure that
District Office personnel thoroughly and properly developed each claim. This process
included multiple levels of required review and claimants’ rights to review and appeal
program decisions. However, as discussed later in this report, the Division did not track
claims while at NIOSH, resulting in the Division not being able to keep claimants
informed about the status of their claims and not taking actions to improve processing
time.

Claims examiners completed initial processing to the point of developing the
recommended decision and forwarded it to a senior claims examiner who reviewed the
claim file and decisions for sufficient evidence. As a final “check,” District Office unit
managers randomly reviewed claims examiners’ work to ensure recommended
decisions complied with Federal law and regulations and contained sufficient evidence
before sending them to the Final Adjudication Branch (FAB).

The FAB, an independent unit within the Division, reviewed each claim before issuing a
final decision. The FAB also issued decisions on claimant objections, if any. Claimants
have the right to review findings of fact and decisions. Some claimants waived any
objections they may have had, objected to all or part of the recommended decision, or
requested a review of the written record or an oral hearing. When the claimant objected
to a decision, the FAB reviewed the file and either issued a final decision or returned the
claim to the District Office for additional development. When the claimant requested an
oral hearing, the Division scheduled a hearing and documented the proceedings in a
formal hearing document. We found that claimants objected to 18 percent of the 95
accepted and denied claims in our sample. Because of the hearings, for some claims
where additional information was provided, the FAB determined there was sufficient


                                                               Energy Employee Compensation
                                            16                    Report No.04-09-002-04-437
                                               U. S. Department of Labor – Office of Inspector General


evidence to support sending the claim back to the District Office for further review. In
12 percent of the objections, the claimant provided additional evidence, and as a result,
the decision to deny compensation was reversed. These “checks and balances”—
especially the Division’s requesting and reviewing additional information to establish
claimant eligibility—ensured decisions were based on all available evidence.

The burden of proof is on the claimant to establish his/her eligibility for compensation.
However, under the Act, DOL is required to assist claimants with developing their
claims. DOL does this by asking other Federal and non-Federal agencies for
information to verify employment, length of employment, toxic exposures, and
documented health issues. This information is necessary for verifying the illness was
DOE employment-related either through the NIOSH dose reconstruction or District
claims examiner evaluations of the type and extent of toxic exposures. As of
September 2, 2008, DOL had issued decisions to accept or deny 136,549 claims (Parts
B and E) and denied approximately 61 percent of them.

Table 3 summarizes the reasons that DOL has reported for denials of Part B and Part E
claims since the inception of the program in 2001.

                                               Table 3
                                      Reasons for Denied Claims

Reason for denial                       No. denied        Percent      No. denied        Percent of
                                        claims            of denials   claims            denials
                                        Part B *          Part B       Part E**          Part E
Ineligible survivor                               2,131          5%             21,128           51%
Cancer not work-related (Probability of          16,511         39%              4,236           10%
causation less than 50 percent)
Insufficient medical evidence                       6,841          16%           12,465           30%
Medical condition not covered                      11,064          26%               N/A           N/A
Employment requirements not met                     5,734          14%             3,544           9%
Total                                              42,281        100%            41,373          100%
Source: DEEOIC Program Statistics, as of September 2, 2008
* For Part B, 76,746 claims received a decision to accept or deny; 34,465 were approved and 42,281 were denied.
** For Part E, 59,803 claims received a decision to accept or deny; 18,430 were approved; 41,373 were denied.

Further details related to the reasons for denial shown in Table 3 are discussed below.

        Ineligible Survivor

        DOL reported that 21,128 (51 percent) Part E claims were denied because the
        survivors did not meet age requirements. Under Part E, eligible survivors include
        the spouse and children. In order for children to be eligible, they must be: under
        the age of 18; under the age of 23 and a full-time student at the time of the
        employee’s death; or any age but incapable of self-support. The large number of
        “ineligible survivor” denials for Part E claims indicates that DOL needs to do a
        better job of informing the public of the age requirements related to survivor
        claims.



                                                                              Energy Employee Compensation
                                                       17                        Report No.04-09-002-04-437
                                U. S. Department of Labor – Office of Inspector General


Cancer Not Work-Related

DOL reported that 16,511 (39 percent) Part B claims were denied because the
claimant could not prove that the cancer was DOE employment-related.

The Energy Employees Act requires HHS to provide information to DOL to
determine whether cancers occurred as a result of radiation exposure during
employment. NIOSH calculates the radiation dose that workers received in a
process called dose reconstruction. DOL must deny a claim if the calculation
does not result in a 50 percent or higher probability that the cancer is
employment related. In order to avoid gathering similar information for each
claim associated with a particular facility, NIOSH compiles facility-specific data in
"site profiles." NIOSH uses these data, employment information (documented
exposure, work performed, and employment length) and the type of cancer to
estimate the amount of radiation exposure. DOL uses the NIOSH results to
calculate the likelihood that DOE employment caused the cancer.

DOL reported that 4,236 (10 percent) Part E claims were denied because the
claimant could not prove that the cancer or other illness was DOE employment-
related.

The Energy Employees Act states that DOL may also use physicians’ services to
determine whether illnesses (Part E cancer or non-cancer) were related to DOE
employment. Doctors obtained by claimants provide an opinion after reviewing
various types of information that includes, but is but not limited to: medical
evidence supporting the claimed illness; types of toxic exposures; length of
employment; and other individual employee factors (e.g., smoking history). The
Division may also contract for the services of a doctor (medical consultant) to
provide a medical opinion when a claimant does not have a personal physician to
provide medical evidence, or when a second opinion is required.

Insufficient Medical Evidence

DOL reported that 12,465 (30 percent) Part E claims and 6,841 (16 percent) Part B
claims were denied because claimants did not provide sufficient evidence to
substantiate the illness, as required. Medical evidence may include the employee’s
doctor diagnosis, laboratory reports, hospital or other treatment facility reports, death
certificates and opinions from medical consultants. In some cases we statistically
sampled, we found claimants filed for compensation not because they were currently
ill, but because they expected to become sick at a future date. In other cases,
illnesses were never diagnosed, or claimants could not obtain medical
documentation because physicians had retired and records were no longer available
or medical facilities no longer retained old medical records.




                                                         Energy Employee Compensation
                                      18                    Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


       Medical Condition Not Covered

       DOL reported that 11,064 (26 percent) Part B claims were denied because the
       illness was not covered. In cases we statistically sampled, we found this primarily
       occurred because claimants did not have one of the following three illnesses:
       radiation-induced cancer, chronic beryllium disease, or silicosis. DOL also denied
       Part E claims if the medical community had not established a link between a toxic
       exposure and the illness. Examples of medical conditions not covered included
       tooth loss, extreme fatigue, hearing loss and cardiovascular problems.

       Employment Requirements Not Met

       DOL reported that 5,734 (14 percent) Part B claims and 3,544 (9 percent) Part E
       claims were denied because claimants did not meet the employment requirements
       of the Act. For example, DOE employees are not eligible under Part E (Part E
       benefits are limited to covered DOE contractor and subcontractor employees, and
       uranium workers). In cases we statistically sampled, we found DOE employees
       were unaware that they were not eligible under Part E and filed claims, which were
       ultimately denied.


Need to Better Educate Claimants at the Point of Application

To make it easier for claimants to file applications, the Division operates 11 Resource
Centers across the country. The Resource Centers are available to assist claimants
and perform outreach. However, improvements are needed to better educate
applicants regarding general program eligibility requirements and the
medical/employment documentation required to process their claims.

The Division’s 11 Resource Centers are contractor operated and located in areas with a
high density of former DOE employees, such as Amherst, New York, and Oak Ridge,
Tennessee. These Resource Centers receive a large portion of the claims applications;
the four District Offices receive the remainder. (See Appendix A, page 53 for a list of the
11 Resource Centers and their locations.)

District Office claims examiners we interviewed reported that the Resource Centers
provide the opportunity for one-on-one contact with the claimant to obtain information
and discuss the required documentation needed to ensure the applicant meets the
general program eligibility requirements. Claims examiners told us Centers did help
claimants in obtaining information, such as medical reports, required to substantiate and
develop claims. While the Resource Centers provide valuable assistance to individuals
interested in filing a claim, they could do more educate claimants about basic program
requirements related to employment, diagnosed illness, and survivor eligibility.

As of September 2, 2008, the Division reported that almost 18,000 Part B and Part E
claims had been denied due to insufficient medical evidence or because the diagnosed


                                                               Energy Employee Compensation
                                            19                    Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


medical condition was not covered under Part B. Claims examiners told us that
employees generally knew it could take several years for DOL to issue a decision, and
the employees expected they would eventually get sick as a result of their worksite
exposure to radiation or toxic substances. Consequently, they applied ahead of time—
unaware that you must have a covered diagnosed illness when you submit your claim.
Once the application was submitted, the District Office was required to process it. If
Resource Center officials had informed applicants their claims could not be approved
unless they could document that they currently had a covered illness, applicants may
have decided not to file a claim.

Under Part E of the Act, surviving children are eligible to receive benefits, but they must
meet the following age criteria: under the age of 18; under the age of 23 and a full-time
student at the time of the employee’s death; or any age but incapable of self-support.
Despite these clear age requirements, as of September 2, 2008, about 21,000
individuals had filed Part E claims, only to be denied as ineligible survivors and not
meeting the age requirements to qualify. Ineligible survivors accounted for more than
half (51 percent) of all Part E claims denied.

Many claims have been denied because basic employment requirements were not met.
Not meeting basic employment requirements accounted for 14 percent of all Part B
denials and 9 percent of all Part E denials. Better education of applicants at the point of
application regarding employment requirements and the collection of employment
documentation would help claimants determine if they could be eligible and what
additional information would be required to establish their eligibility. In FY 2006, DOL
modified its contracts with Resource Center operators to include initiating actions
required for employment verification. Employment verification includes completing the
employment history form, searching the DOE employee data base, and initiating the
request for DOE employment verification. However, we believe more could be done by
the Resource Centers to better educate claimants regarding basic program eligibility
requirements.

After applications are filed, the claims examiners told us they had to pursue a
time-consuming process of sending letters and making followup calls to claimants
requesting evidence needed to satisfy the eligibility criteria. In addition, claims
examiners told us that older and severely ill claimants had difficulties in understanding
written requests for information or web-based material due to its technical nature.

We conclude that greater involvement by Resource Centers to assist claimants with
obtaining required medical/employment documentation and better education of
applicants at the point of application regarding program eligibility requirements may
facilitate claim development and could reduce claimants’ unwarranted expectations of
potential compensation.




                                                               Energy Employee Compensation
                                            20                    Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General


Allegation of Direction to Summarily Deny Claims Not Corroborated

During our review, the OIG received allegations from a former claims examiner that
claims examiners had been directed to inappropriately deny claims, and that 85 to 90
percent of claim files contained errors. This individual also alleged that supervisors
attached notes to files telling claims examiners to deny claims and examiners denied
those claims because they feared losing their jobs.

The OIG conducted a specific inquiry into these allegations and attempted to interview
the former claims examiner who made the allegations to obtain more specific
information. The former claims examiner stated that she would not agree to a personal
interview unless the OIG agreed to meet certain conditions. These conditions were not
acceptable to the OIG, and this interview never took place. However, the former claims
examiner provided the OIG with the names of three claims examiners who supposedly
could support her allegations. We interviewed the three claims examiners, as well as
seven more, but no one corroborated the allegations. These claims examiners stated
they were never told to summarily deny a claim and claims were only denied after
following the appropriate procedures. These claims examiners also stated that they
were not threatened, and were not aware of any other claims examiners being
threatened, if claims were not denied. Furthermore, claims examiners stated that they
believed controls were adequate to ensure claim decisions were proper.

To further explore the allegations, we reviewed 41 claims (5 claims accepted for
compensation, 23 denied claims, and 13 administratively closed claims) that were assigned
to the former claims examiner while she was working in the Seattle District Office. We
found that in all 41 of these cases the Seattle District Office issued properly
documented decisions that complied with the program’s regulations.

In addition, we reviewed 5 claims (3 denied and 2 accepted for compensation) that had
been publicly reported as mishandled by DOL. We found that the Division properly
adjudicated these claims in compliance with the law and regulations, and the decisions
were adequately supported with required evidence.


Objective 2 — Does DOL ensure that claims are adjudicated as promptly as
              possible and claimants are kept informed?

EEOICP has made progress in reducing the timeframes to decide both Part B and Part
E claims. However, to further reduce claims processing time, we believe DOL can and
should do more to: measure timeliness; utilize Resource Centers; obtain claimant
information earlier through comprehensive interagency agreements and better
information collection processes; manage claims examiners’ workload; and
communicate with claimants. We also found that, while DOL has many measures of
the claims processing phases it is responsible for, there is no overall measure of the
time it takes from application to final decision and payment to present a complete
picture of how well the program is serving the claimants.


                                                              Energy Employee Compensation
                                           21                    Report No.04-09-002-04-437
                                         U. S. Department of Labor – Office of Inspector General


Since the program’s inception, the average processing time from application to final
decision for both Part B and E claims is more than three years and, in some cases,
nearly four years. We recognize that the long timeframes experienced in the earlier
years of the program are in part explained by the program’s growth that required
developing policy guidance, personnel, processes and obtaining available information.
Further, the evolution of the program included multiple legislative and program changes
that resulted in claim backlogs. For example, the 2004 amendments to the Energy
Employees Act abolished Part D administered by DOE, created Part E administered by
DOL, and transferred all pending Part D claims to DOL to be processed under the new
Part E. Each time a new SEC was approved, DOL was then required to reconsider
previously decided claims to determine if claimants were eligible under the new SEC.
Finally, the development of more current site profiles also meant that DOL had to
rework previously decided claims.

Tables 4 and 5 below present the claims in our sample for Part B and E , respectively,
by year of application and year of final decision. The “Average Days to Final Decision”
time is calculated from the time of application to the issuance of final decision, and
includes the time the claim was under development at NIOSH and/or other Federal
agencies. As the tables indicate, the “Average Days to Final Decision” was significantly
lower for the more recently received applications.

                                        Table 4
                                     Part B Claims
                        Average Number of Days from Application
                            to Issuance of the Final Decision




              YEAR OF APPLICATION                 YEAR OF FINAL DECISION

                            Number of   Number                    Number      Average
                              Claims      of           Number       of      Days to Final
                 Year        Sampled    Claims        of Claims   Claims      Decision


                                          2005          2006       2007


                 2001          15            7          6            2         1713
                 2002          20            2          12           6         1622
                 2003           6            2          2            2         1267
                 2004           3                       2            1          777
                 2005           3                       1            2          646
                 2006           0                                               n/a
                 2007           1                                    1           20
                               48           11          23          14
                           Source: OIG Stratified Random Sample of Claims
                                Accepted or Denied for Compensation




                                                                      Energy Employee Compensation
                                                 22                      Report No.04-09-002-04-437
                                            U. S. Department of Labor – Office of Inspector General



                                       Table 5
                                    Part E Claims
                       Average Number of Days from Application
                           to Issuance of the Final Decision



           YEAR OF                                  YEAR OF FINAL DECISION
         APPLICATION

                                                                                            Average
                   Number      Number     Number         Number                             Days to
                  of Claims      of         of             of      Number of     Number      Final
         Year     Sampled      Claims     Claims         Claims     Claims      of Claims   Decision
                                  2003       2004           2005        2006         2007
           2001          7                                     2           3            2      1556
           2002         14            1                        2           8            3      1528
           2003          9                                                 4            5      1187
           2004         13                                                 9            4       892
           2005          4                                                 1            3       672
           2006                                                                                  n/a
           2007                                                                                  n/a
         Totals         47            1             0         4            25         17
                              Source: OIG Stratified Random Sample of Claims
                                   Accepted or Denied for Compensation

In response to our draft report, ESA took exception to the original presentation of Tables
4 and 5, contending delays in processing claims were attributed to ESA when the more
significant delays occurred while the claim was at NIOSH or other Federal agencies. To
address this concern, we have revised Table 4 and now make no distinction between
the various DOL or NIOSH processing phases. However, we continue to believe that
the overall duration of time from initial application to final decision is a more meaningful
measure of overall program timeliness from the claimant’s perspective.

ESA stated that it has made real strides in reducing the timeframes to decide both Part
B and Part E cases, noting that initial processing of claims in the District Offices has met
the EEOICP’s key GPRA average days goals for each year except FY 2002. Further
ESA stated that FY 2009 targets for average duration for initial processing will be
significantly reduced for both Parts B and E, in part due to resolving the backlog of aged
cases in their District Offices.

In FY 2007, DOL reported three program performance measures of EEOICP claim
processing activities in its annual Performance and Accountability Report: average
number of days to process initial claims for Energy Employees Occupational Illness
benefits; percentage of Final Decisions in the Part B and Part E Energy Program
processed within 180 days (hearing cases) or 75 days (all other cases); and percentage
of Part E claims backlog receiving initial decisions. The results reported by ESA are
consistent with the decrease in case processing duration times for more recent
applications, as shown in Tables 4 and 5 above. In addition, we note DOL has met its

                                                                         Energy Employee Compensation
                                                    23                      Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General


incremental processing goals and most recently reduced the initial processing goals
from 300 days in 2007 to an average of 226 for Part B claims and 290 days for Part E
claims in 2008.

While the incremental processing goals are important, DOL does not have an overall
measure of the time it takes from application to final decision that presents a complete
picture of how well the program is serving the claimants. We recognize that many
processes related to the processing of claims are not under DOL’s direct control.
However, we believe it is important to measure how well the program is serving the
claimant and not to solely measure how long a claim is at DOL. In addition, even with
the improvements in processing time for the initial development phase of a claim, the
average target measure is still almost 9 months at DOL, not including time spent at
NIOSH. We believe greater emphasis and measurement of interim milestones for major
activities during the initial processing phase could lead to reduced claims processing
time overall.

In addition to the lack of measures and reporting on the overall effectiveness of claims
adjudication for the Energy Program, we noted several areas where we believe DOL
can further improve timeliness and communications with claimants:

   •   utilize Resource Centers more effectively;

   •   obtain claimant information earlier through comprehensive interagency
       agreements and better information collection processes;

   •   develop a more comprehensive tracking system to facilitate workload
       management; and

   •   increase communications with claimants.

Each of these findings is discussed below.

Need to Establish Better Measures of Timeliness

To ensure claims are processed as promptly as possible, DOL needs an overall goal for
the duration of time from application to final decision, as well as interim milestones for
the initial processing of claims. The duration of time from application to final decision
varies based on whether the claim is a Part B or Part E. Part B claims generally require
a dose reconstruction by NIOSH, whereas Part E claims do not. DOL administers the
program; it does so with the input, assistance and determinations of two other major
Federal agencies: Department of Justice (DOJ) and HHS. Accordingly, the duration of
time to issue a decision on a claim is affected by processing at NIOSH or DOJ. While
DOL has established and tracks 20 timeliness goals for the claims processing activities
within DOL, it does not measure the timeliness of claims processed by other agencies
nor the total time from application to final decision.


                                                              Energy Employee Compensation
                                             24                  Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


ESA stated that, although DOL is identified as the “lead agency” by Executive Order
13179, HHS/NIOSH has independent legal authority and responsibility to oversee or
guide HHS/NIOSH activities. Furthermore, ESA stated that while the outcome of the
dose reconstruction conducted by NIOSH ultimately feeds into the EEOICP’s
adjudication process for affected cases, attempting to incorporate time spent at NIOSH
in DOL’s timeliness goals would vastly distort the information and so overwhelm the
time at DOL as to render the goals useless as a measurement of DOL’s efforts.

Although we recognize that many processes are not under DOL’s direct control, we
believe it is important to measure how well the program is serving the claimant and not
to simply measure how long a claim is at DOL.

In addition, DOL needs interim milestones for the initial claim processing phase. During
this phase, claims examiners review and process claims for eligibility, assist in obtaining
evidence to substantiate the claims, analyze the documented evidence and make
program eligibility determinations. (See Exhibit 1.) The FY 2008 goal for the initial
processing phase was 266 days. When interviewed, claims examiners expressed
concerns about meeting this goal because of difficulties they often encountered in
obtaining the necessary evidence. These difficulties involved obtaining employment
information and medical documentation from multiple sources. In FY 2007, the initial
processing goal of 300 days was reported as not met.

ESA stated that the Division has continually updated its procedures to speed up initial
processing of all claims, and has sought ways to efficiently pursue multiple information
development efforts. Beginning in September 2005, Resource Centers were directed to
initiate employment verification and occupational history development at the inception of
each claim. While DOL has reduced claims processing times, and certainly the
measuring of goals at significant processing phases is essential, the lack of an overall
timeliness goal for processing a claim from application receipt hampers DOL’s ability to
ensure claimants’ needs are being addressed as promptly as possible. Also, because
the initial processing phase is lengthy, establishing milestones within this phase based
on the detailed actions and major activities required may help identify reasons for
processing delays and highlight areas needing increased management oversight.

Need to Better Utilize Resource Centers

As discussed in Objective 1, District Office claims examiners reported that Resource
Centers provide the opportunity for one-on-one contact with the claimant to discuss and
obtain documentation needed to ensure the applicant meets the general program
eligibility requirements.

Claims examiners told us that Resource Centers helped claimants obtain information,
such as medical reports, required to substantiate and develop claims. When all
documentation was not obtained by the Resource Center, the District Office claims
examiner followed a more time-consuming process of sending letters and making
follow-up calls to claimants requesting required documentation. Claims examiners

                                                               Energy Employee Compensation
                                            25                    Report No.04-09-002-04-437
                                        U. S. Department of Labor – Office of Inspector General


stated that older and severely ill claimants had difficulties understanding written
requests for information or web-based material due to its technical nature. As
discussed in Objective 1, the main reasons for denials, other than the inability to
establish that the illness was DOE employment-related, were lack of medical evidence
of a diagnosed illness, failure to meet survivor eligibility criteria, and inability to verify
sufficient employment.

ESA stated that Center responsibilities for assisting and educating claimants have
grown incrementally over time. ESA further explained that, while the
contractor operated Centers provide information that might lead a claimant to decide
against filing, to direct the Centers to pre-judge eligibility and attempt to block the filing
of apparently ineligible claims would be contrary to the letter and spirit of the EEOICPA.
ESA stated that one major type of invalid application – Part B claims for diseases other
than the three covered conditions – is no longer a significant problem, while recognizing
Part E ineligible survivors remained an issue and agreed it would be valuable to explore
expedited evaluation by District Office staff to speed the resolution of these claims.

We agree that Centers should not attempt to block the filing of a claim and that the
Division should explore expedited evaluation techniques. However, we conclude that
better educating applicants at the point of application regarding program requirements
and the collection of medical/employment documentation would help applicants
determine if they could be eligible and what is required to establish their eligibility.
Greater emphasis and assistance to applicants upfront could also minimize the time
required later in the process to gather documentation to support eligibility.

Need Improvements in Obtaining Claimant Information through Comprehensive
Interagency Agreements and Better Collection Processes

DOL needs interagency agreements with Federal and non-Federal agencies that clearly
delineate each agency’s responsibilities for obtaining information needed to verify
claimant eligibility. These agreements should provide timelines within which each
agency is expected to complete assigned tasks. In addition, the processes used by
DOL to obtain information required to verify employment eligibility or obtain medical
records are inefficient, time consuming, and result in inconsistent and untimely
processing of information in developing claims.

While DOL has interagency agreements with other Federal agencies, the agreements
are not specific in describing the process for information sharing. The existing HHS
agreement addresses annual funding along with financial operating budgets and the
current operational activities and plans at NIOSH for claims processing. However, the
agreement does not provide sufficient details of the processes agreed to for the access
and exchange of information. For example, methods of information transfers, required
response times, and procedures for followup requests are not addressed.

ESA noted that the Division’s Procedural Manual documents the arrangement with DOE
to promote the efficient verification of employment status and documents detailed


                                                                  Energy Employee Compensation
                                              26                     Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


agreements reached with NIOSH on a wide range of issues. ESA further stated that
DOL has established and maintained informal interagency agreements with its partner
agencies, but recognized the need to explore developing formal Memoranda of
Understandings with the other agencies (DOE, DOJ, and HHS).

In November 2007, DOL took steps to improve interagency information coordination
with DOE. DOL engaged DOE in discussions about the types of information required to
develop and adjudicate claims filed under the Act. District Office personnel stated the
discussions were beneficial in identification of information requirements. Also, DOE
personnel better understood how DOL used the information to process and adjudicate
claims. However, steps have not been taken to improve the processes for sharing
information so as to increase timeliness. The lack of detailed working processes with
other Federal and non-Federal agencies for obtaining information to assist in the
verification of the claim results in inconsistent and untimely processing of information
needed to develop claims.

We also found that DOL’s processes for verifying employment eligibility and obtaining
medical records were time consuming and contributed to the Division not meeting its
milestone for the initial processing of claims. Claimants are required to provide
evidence to support their claims, but the Division assists claimants by obtaining
employment information and medical records from other sources.

District claims examiners stated that the process to request and receive additional
employment information required a written request and response. If no response to the
initial request was received within 30 to 60 days, the claims examiner sent a followup
request. Often several attempts to obtain information were necessary. This process is
inefficient because it relies heavily on written requests transmitted through regular mail.
In addition, claims examiners do not pursue all sources of employment information from
the outset to minimize time elapsed if one source does not provide necessary
documentation. For example, a claims examiner may spend several weeks pursuing
employment records from DOE, only to learn that DOE cannot confirm the employment.
Only then will the claims examiner begin pursuing other sources of information to verify
employment.

Table 6 shows various sources that the Division seeks to obtain needed information.




                                                               Energy Employee Compensation
                                            27                    Report No.04-09-002-04-437
                                           U. S. Department of Labor – Office of Inspector General


                                           Table 6
                             Sources for Employment Verification

                      Source                                  Verifying Information

   DOE                                             Employment dates
                                                   Employment locations
                                                   Radiological dose records
                                                   Incident or accident Reports
                                                   Medical records
                                                   Job description
                                                   Industrial Hygienist and safety records
                                                   Pay and salary records

   Social Security Administration                  Salary records
                                                   Identification of employer
                                                   Dates of reported income

   Center for the Protection of Workers’ Rights    Employment periods
                                                   Employer
                                                   Work location(s)

   Employers (Contractors)                         Employment dates
                                                   Employment locations

   DOJ                                             Employment records


   Claimants                                       Affidavits verifying employment
                                                   Personal employment records



ESA told us that DOL has continually updated its procedures to speed initial processing
of all claims, and has sought ways to efficiently pursue multiple information
development efforts simultaneously. ESA indicated that delays in employment
verification we cited have been significantly addressed by these changes, noting a
decline in the number of processing days for Part B and E claims.

While we recognize the efforts of the DOL have resulted in improvements, the claims
examiners interviewed continue to report they were challenged to meet the Division goal
to complete the initial processing milestones because of the difficulties in obtaining
information needed to process the claim. This was particularly significant in processing
contractor or subcontractor employee claims for which DOE did not have the complete
employment records. For example, cases reviewed disclosed that as many as 120
days could elapse while awaiting responses from the sources used to verify
employment. Even more time elapsed when the needed information was not provided
in response to the first request and followup requests were required.

                                                                      Energy Employee Compensation
                                                  28                     Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General



We do note that while a legal requirement may exist for formalizing in writing certain
aspects of the claim processing, other aspects may not require this formality and should
be handled through more expedient methods, such as electronic and automated
communication. In addition, efforts to pursue all sources of employment information
from the outset would minimize time elapsed, particularly for those claims where one
source does not provide the needed information.

ESA informed us that DEEOICP will continue to streamline its development procedures
and pointed to upcoming procedural changes that will expedite Part E loss and
impairment claims by initiating evidence-gathering earlier in the overall process.

Need a Comprehensive Tracking System to Facilitate Workload Management

DOL is primarily responsible for the timely processing of claims of employees and their
survivors for Parts B and E compensation and benefits. However, other agencies
outside of DOL’s control, such as DOE and HHS/NIOSH, have a major role in the
process. DOL lacked an effective mechanism for tracking claims under development at
other agencies. As a result, DOL did not track the status of claims undergoing dose
reconstruction at NIOSH. As of February 21, 2008, there were more than 7,000 claims
at NIOSH -- 1,248 claims had been at NIOSH for more than 2 years, and 683 for more
than 5 years.

Monitoring claims under development at other agencies is critical to enabling DOL to
keep claimants informed regarding their claim status and allowing actions required by
DOL to be conducted timely. For example, we noted claims that had been
administratively closed by NIOSH because the claimants failed to return the notice to
release the dose reconstruction results. DOL was unaware of these administrative
closures and unable to notify claimants of their right to object. Although NIOSH notifies
claimants as it processes their claims, DOL is also responsible for notifying claimants of
their right to object.

ESA stated DOL does not track overall case resolution times (including NIOSH times).
ESA noted that, given the delays inherent and institutional in NIOSH dose
reconstruction development and the lack of statutory authority to affect change in that
process, any attempt by DOL to implement a NIOSH case-tracking protocol would be
wasteful and prove fruitless. Further, ESA stated that DOL can compute overall case
durations, but they would have little or no operational utility as GPRA or operational
goals absent a restructuring of the program by legislation.

We have previously reported that many processes related to the processing of a claim
are not under DOL’s direct control. However, we believe it is important to measure how
well the program is serving the claimant and not to simply measure how long a claim is
at DOL. Currently, the timeliness of adjudicating claims from the viewpoint of the
claimant – how long it takes from application to final decision, regardless of how many
Federal agencies are involved – is not being tracked or measured.


                                                              Energy Employee Compensation
                                            29                   Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


In addition, comprehensive system reporting is needed to enable DOL to monitor and
manage each claims examiner’s workload. Claims examiners stated they did not use
available reports to manage their cases and they were concerned about their inability to
monitor their workloads. The Division provided several internal reports to assist its
District Offices in monitoring claim status. District Office managers could, but were not
required to, use these reports to assess progress in meeting timeliness goals. Three
key reports were:

       •   Claims pending payments
       •   Claims that had received a recommended decision awaiting a final decision
       •   Part E (formerly Part D) claims requiring development

We judgmentally reviewed 213 claims identified in the three key monitoring claim status
reports. We reviewed 90 claims for timeliness in processing and 123 for late payments.
We found 17 of 123 claims (14 percent) with late payments that ranged from 43 to 383
days. We attribute the late payments to the lack of consistent use of available reports
by fiscal officers to monitor required payments and that payment forms were not
properly prepared prior to release. The lack of supervisory oversight and followup
procedures for ensuring that required payment forms are returned in a timely manner
also contributed to the late payments.

ESA stated it uses workload reports that track the internal progress of case
adjudications, for all stages through payment. ESA noted that these reports are
constantly evolving and are refined as necessary.

In 2007, DOL reported that it did not meet 7 of 20 timeliness goals for processing
claims. In addition, while we noted improvements in claims processing timelines in the
95 claims we reviewed, the process from application to final decision is still very lengthy
and many claims continue to take as long as 2 years to process. According to the
claims examiners we interviewed, delays in processing were due to the large number of
claims under development, which sometimes prevented them from being aware that
specific claims were not going to meet the Division’s claims processing goals. While the
Division provides the District Offices with detailed data to monitor how claims examiners
are managing their cases and the status of claims, all Districts did not use the data to
ensure cases were being effectively managed. Claims examiners were concerned about
their inability to better monitor their workload because their performance standards
included timeliness measures.

ESA told us that the planned implementation of the Unified Energy Case Management
System (UECMS) will allow for even more effective means of monitoring case progress
to ensure timely outcomes. However, we conclude that a comprehensive tracking
system that addresses all claim processing activities would allow increased oversight of
claims in process, improved management of resources for claims processing, and
timelier information on the status of claims.




                                                               Energy Employee Compensation
                                            30                    Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General


Need Increased Communication with Claimants

The Division could do more to communicate with claimants. Communication with
claimants throughout the claims development and adjudication process is typically done
by telephone, as well as through written requests for information. Contact points
throughout the process include notification of: status of claim; recommended and final
decisions; rights to file objections; closure of claims; reopening of claims;
reconsiderations of claims; remanded claims; and claims pending payments. In
addition, the program has a web site that provides general program information.

We reviewed 115 of 1,008 items of correspondence from FYs 2006 and 2007 and found
that many were related to disagreements with issued decisions. However, more than
50 percent (60 of 115) of the correspondence involved requests for updates on claims’
status and complaints about the time required to process claims. We reviewed 42
claims that had not received a recommended final decision, and 95 claims that had
received final decisions (including 17 claims that involved an appeal) to determine the
type of communication DOL was having with claimants. The Division generally
communicated with claimants as required by its internal policy, but due to the lengthy
claims development process, there were often extended periods of time without any
communication.

ESA concurred with the need to continually improve its communication with claimants.
ESA stated that upon deployment of its new case management system, it will have a
platform that will support the future development of much more substantial electronic
communication. This will include case imaging and internet access to case status.
However, ESA does not believe that it should routinely communicate with claimants
regarding the status of activities being conducted by NIOSH, citing duplication of NIOSH
communications and the opportunity for confusion and error.

OIG believes that DOL, as the lead agency, must develop the necessary coordination
with other Federal agency processing partners to avoid claimant confusion and
duplication of effort. OIG further believes that, because multiple agencies are involved
and may be communicating with the claimant, it may reduce confusion if the claimant
had a single point of contact at DOL. More frequent updates could reduce the stress
and anxiety placed on claimants, many of whom are ill, and their families, who are
unsure as to efforts being made to process their claims.


Recommendations

We recommend that the Assistant Secretary for Employment Standards:

1.    Establish a comprehensive system to track all claims from point of application
      through final decision and payment. Such a system should account for all steps
      in the claims intake, development, adjudication, and payment process,
      regardless of the agency handling the processing. This system should be used
      consistently by all District Offices to better manage and prioritize work.

                                                              Energy Employee Compensation
                                           31                    Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General



2.     Establish improved interagency agreements with all Federal partner agencies
       that specify expectations and the details of work to be performed.

3.     Establish an overall performance measure for the timeliness of processing claims
       from point of application to final decision and payment, as well as delineating
       more milestones and goals for the initial processing phase.

4.     Expand Resource Centers’ responsibilities to include helping claimants obtain
       evidence to support claim and better educate the claimant on requirements for
       eligibility.

5.     Pursue multiple sources of information required to develop and/or verify evidence
       to establish a claim simultaneously, rather than one source at a time.

6.     Increase contact with claimants to keep them informed of the status of their claim
       and information and/or actions needed to complete their claim. Automate
       communications and use electronic exchange of information with partner
       agencies, and to the extent possible, with claimants.




Elliot P. Lewis




                                                              Energy Employee Compensation
                                           32                    Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




Exhibits




                                    Energy Employee Compensation
                 33                    Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                 34                    Report No.04-09-002-04-437
                                                       U. S. Department of Labor – Office of Inspector General


                                                                                                            Exhibit 1
                             Claims Development and Adjudication Process


Submit Claims. The employee or their survivor(s) (if employee is deceased) may file a
claim in person or by mail to a District Office (DO) or Resource Center, or via the
Internet.8 Resource Center staff may assist employees or survivors in filling out
necessary forms and obtaining accurate information on the employee’s employment
and occupational history–required for the District Office to review and develop the claim.
The Resource Centers send the claim form to the DOs for development.

Determine Eligibility. The four District Offices are responsible for determining eligibility.
Eligibility is defined as establishing survivor’s eligibility if the claim is being filed for a
deceased DOE employee. Also, eligibility must be established to show employment
and a diagnosed illness.

       a. Survivor eligibility. To determine if claims are valid, the District offices must
establish survivor eligibility. The Division requires claimants provide documents such as
marriage and birth certificates, and divorce decrees to show proof there is an
established relationship with the employee, as required by the Energy Employees Act.
The Division may recommend a decision to deny the claim because there is insufficient
evidence to establish survivor eligibility.

       b. Employment Verification. District Offices verify employment to establish that
the employee worked at covered DOE site and to confirm locations (e.g., location of
DOE facility) and periods he/she performed the work. The District Offices require this
information in order to determine whether the employee’s exposure at a DOE facility
were as likely as not the cause of the illness. DOE is the primary source used to verify
employment. However, because of the numerous contractors and subcontractors, the
Division requests information from several other sources to verify employment,
including:

                     1.        Oak Ridge Institute of Science and Education (ORISE) database of
                               DOE employees.
                     2.        Direct contact with previous employers (contractors and
                               subcontractors) to obtain employment information.
                     3.        Social Security Administration requests to obtain pay and employer
                               information.
                     4.        Center for the Protection of Workers Rights, a trade union
                               organization that can provide dates and employer information.
                     5.        Affidavits provided by co-worker attesting to DOE employment.

      c. Medical documentation. Part B covers the following illnesses: radiation-
induced cancer, chronic beryllium disease and chronic silicosis. Part E covers illnesses

8
    A claim form is available at http://www.dol.gov/esa/owcp/energy/regs/compliance/EEOICPForms/ee-1.pdf.



                                                                                         Energy Employee Compensation
                                                                35                          Report No.04-09-002-04-437
                                       U. S. Department of Labor – Office of Inspector General


or death resulting from exposure to a toxic substance. Claimants are required to
provide medical evidence to establish the claim. Medical evidence includes a diagnosis
specifying the illness (strongest support) or copies of laboratory reports or test results.
The Energy Employees Act regulations stipulate that the burden of proof is the
responsibility of the claimant. However, the Division also requests medical records from
DOE to assist in verifying the diagnosis of an illness.

Determine Causation. Based on program eligibility, the District Offices use the services
of NIOSH and medical consultants for completing the claims development process.
NIOSH provides services for evaluating Part B and Part E cancer claims, by performing
dose reconstructions. Medical consultants, claimant’s treating physician, certified
toxicologist, industrial hygienist and web-based information on relationship between
illnesses and toxic substances are used by claims examiners to assess Part E illnesses
to determine if there is a link between toxic exposures and claimed illnesses. After
reviewing the information, the District Office determines whether the exposure was
related to causing or aggravating the illness. The District Office then proceeds to issue
a recommended decision to accept or deny the claim.

        a. The Energy Employees Act provides guidelines for determining whether Part B
cancer claims (if not included in a Special Exposure Cohort petition) were at least as
likely as not related to employment at the DOE facilities. These guidelines include
methods for estimating the radiation doses received by the employee. At the time of
our evaluation, NIOSH had issued 32 guidance changes, resulting in DOL re-evaluation
of 12,955 cases to determine whether a new dose reconstruction was required. NIOSH
changed its guidance because of new information about specific DOE sites that affected
the dose reconstruction process.

        b. To determine if the exposure to toxic substances caused the illness or death,
Part E of the Energy Employees Act includes guidelines to use physician services to
establish the link between exposures and illness. The medical consultants provide
medical opinions whether the diagnosed illnesses or death was aggravated, contributed
to, or caused by exposure to toxic substances. The Division used 7 appointed and 78
contracted medical consultants. Considering the specific issues of each case, claims
examiners identify the medical specialty required to assess the medical condition and to
make determinations as to whether the claimed illness was induced by toxic exposures
during DOE employment.

Additionally, the Division maintains a database called the Site Exposure Matrix (SEM) to
assist claims examiners in determining whether toxins known to exist at DOE sites may
have caused or aggravated the illness. The SEM includes information by occupational
titles, toxins present within the specific work locations, and information linking the toxins
to the claims’ illness. Division procedures require the use of this database, but allow
review of information from other sources in establishing the link between the toxin and
the illness.




                                                                Energy Employee Compensation
                                             36                    Report No.04-09-002-04-437
                                    U. S. Department of Labor – Office of Inspector General


Adjudicate Claims. District Offices prepare and issue the recommended decision based
on the eligibility and causation development actions. The Offices send the
recommended decisions simultaneously to the claimant and the Final Adjudication
Branch (FAB). District Offices may recommend decisions to either accept or deny the
claim for compensation. Accepted claims include validated eligibility criteria and a
determination that illness was a result of employment exposure to radiation or toxic
substances. Reasons to deny a claim may include: ineligibility of survivor, insufficient
medical or employment information, the probability of causation for radiation exposure
less than 50 percent, or the medical consultant’s determination that the claimed illness
was not caused by work-related toxic exposures. The FAB’s role is to provide another
level in the Division’s processes to ensure that issued decisions complied with law and
program guidance. The FAB reviews the decision for sufficiency, and also reviews
appeals made by claimants if there are disagreements with the decision.

After receiving the recommended decision and the supporting case documents, the FAB
determines whether it is in compliance and adequately supported. If unsupported, the
FAB will return the claim to the District Office. If the FAB agrees with the recommended
decision, and the claimant does not object, the FAB issues the final decision.

The Energy Employees Act regulations include procedures for the claimant to object to
all or part of the recommended decisions. Claimants may object to decisions by
requesting a formal hearing or a review of the claim. In either case, the FAB considers
current and new evidence provided before issuing a decision. Depending on the impact
of the additional evidence, the FAB may return the case to the District Office for
additional work or decide the new information does not substantially alter the
recommended decision and issue a final decision. After a final decision is issued, the
claimant may still request the reopening of the claim. The request can be based on
disagreement with the decision, presentation of new facts, or the onset of a newly
diagnosed illness. Claimants can always request a reopening of their claim based on
new evidence or the onset of another illness. Therefore, the Division never considers a
case as closed.




                                                             Energy Employee Compensation
                                           37                   Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                 38                    Report No.04-09-002-04-437
                                         U. S. Department of Labor – Office of Inspector General


                                                                                        Exhibit 2
                                  DEEOIC Claim Forms
                            EE-1 Energy Employee Claim Form




EE-1 Page 2, containing instructions for completion, is not included but is available on the DOL
website at http://www.dol.gov/esa/owcp/energy/regs/compliance/claimsforms.htm




                                                                    Energy Employee Compensation
                                                39                     Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General



EE-2 Claim for Survivor Benefits




                                    Energy Employee Compensation
                 40                    Report No.04-09-002-04-437
                                         U. S. Department of Labor – Office of Inspector General




EE-2 Page 3, containing instructions for completion, is not included but is available on the DOL
website at http://www.dol.gov/esa/owcp/energy/regs/compliance/claimsforms.htm



                                                                    Energy Employee Compensation
                                                41                     Report No.04-09-002-04-437
                                          U. S. Department of Labor – Office of Inspector General


                         EE-4 Employment History Affidavit




EE-4 Page 2, containing instructions for completion, is not included but is available on the
website at http://www.dol.gov/esa/owcp/energy/regs/compliance/claimsforms.htm


                                                                     Energy Employee Compensation
                                                 42                     Report No.04-09-002-04-437
                                          U. S. Department of Labor – Office of Inspector General


                  EE-7 Medical Requirements Under EEOICPA




EE-7 Page 2, containing instructions for completion, is not included but is available on the
website at http://www.dol.gov/esa/owcp/energy/regs/compliance/claimsforms.htm



                                                                     Energy Employee Compensation
                                                 43                     Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                 44                    Report No.04-09-002-04-437
                                          U. S. Department of Labor – Office of Inspector General


                                                                                      Exhibit 3
                             DEEOIC Timeliness Goals Trends 2007

The Division of Energy Employees Occupational Illness Compensation develops and
publishes an annual Operational Plan that includes objectives and goals. The
Operational Plan includes workload and timeliness goals. The timeliness goals
evaluate discrete actions to be taken as part of the claims development and
adjudication processes. There are 16 goals evaluating District Office performance and
4 evaluating the Final Adjudication Branch. The goals have generally remained
consistent since FY 2001. The following table shows the FY 2007 goals and
accomplishments:

                             DEEOIC Timeliness Goals Trends 2007


                 Goal                    Target         Part B           Part E          Goal
                                                        (Actual)         (Actual)      Achieved
1   Create claims within 5 calendar
    days of receipt                       95%            96.6%             96%             Yes
2   Take initial action within 14
    calendar days of creating claim       90%            96.3%            85.3%             No
    Take initial action within 25
    calendar days of creating claim       95%            97.8%            87.2%             No
3   Complete initial processing of
    Claims within 180 calendar days       60%             60%             47.9%             No
    of claim receipt
    Complete initial processing of
    Claims within 300 calendar days       80%            76.5%            65.3%             No
    of claim receipt
4   Establish baseline (average
    number of days) for completion of                     238              266.7            n/a
    initial processing
5   Complete initial processing for 90
    percent of the claims received        90%             97%             94.7%            Yes
    before June 8, 2005 by the end of
    FY 2007
6   Calculate probability of causation
    (POC) and issue recommended           90%             83.2                              No
    decision within 60 days after
    NIOSH returns the claim (Parts B
    and E)




                                                                   Energy Employee Compensation
                                                  45                  Report No.04-09-002-04-437
                                             U. S. Department of Labor – Office of Inspector General




                   Goal                    Target             Part B               Part E          Goal
                                                              (Actual)              (Actual)     Achieved
 7   When Cases are returned due to
     an addition to the Special             75%              In FY 2007,                             N/A
     Exposure Cohort (SEC), complete                       DEEOIC did not
     Part B recommended decisions or                       meet timeliness
     refer to NIOSH within the                              goals for 11 of
     timeframes established for the                        the 14 sites for
     particular SEC group.                                   which it was
     .                                                     monitoring SEC
                                                               petition
                                                              approvals.
 8   Issue final decisions within 30
     calendar days of receiving the         85%                 88%                   89%            Yes
     claimant's waiver to his/her right
     to a hearing or review of record
 9   Issue final decisions in all
     approved or no-contest claims          85%                 87%                   84%             No
     within 75 calendar days of the
     recommended decision (GPRA
     Goal)
10   Issue final decisions for review of
     written record within 75 calendar      85%                79.3%                 82.5%            No
     days of the request for review of
     the written record (GPRA Goal)
11   Issue final hearing decisions in
     formal hearing within 180              85%                 80%                  85.8%            No
     calendar days of the request for
     hearing (GPRA Goal)
12   Take initial actions on remands
     and director's orders within 30        90%                96.3%                 93.2%           Yes
     calendar days of receiving the
     claim in the District Office
13   Make recommended decision
     after remand or director's order       75%                67.9%                 70.9%            No
     within 120 days
14   Process lump sum payments
     within 15 calendar days of             90%                97.8%                  98%            Yes
     receiving claimant's EN-20 form
     (payment-related information)
15   Respond to priority inquiries
     within the time frame established     See next
     by Secretary Information              measure
     Management System
      (generally 14 calendar days)
16   District Office (DO) responds to
     telephone inquiries within 2           90%            96.4% (average                            Yes
     business days                                          of all DOs for
                                                            Parts B and E)
17   Complete reopening request in
     the District office within 90 days     75%                79.7%                 93.7%           Yes


                                                                              Energy Employee Compensation
                                                      46                         Report No.04-09-002-04-437
                                         U. S. Department of Labor – Office of Inspector General




                  Goal                  Target          Part B              Part E           Goal
                                                        (Actual)             (Actual)      Achieved
18   Respond to requests for medical
     authorization (threads) within 5    75%          75% (for both                           Yes
     calendar days                                    Parts B and E)
19   Complete recommended
     decisions on the total available    100%                                 100%            Yes
     part E Backlog claims (GPRA
     Goal)
20   Establish baseline measurements
     for completing recommended
     decisions on wage loss and
     impairment (Part E only)
     Wage-loss (from receipt of Wage
     loss Claim)                                                            321.1 days         n/a
     Impairment (from receipt of
     Impairment Claim)                                                      209.5 days         n/a

 Source: DEEOIC 2007 Operational Plans and Summary Results for both Parts B and E claims




                                                                       Energy Employee Compensation
                                                 47                       Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                 48                    Report No.04-09-002-04-437
             U. S. Department of Labor – Office of Inspector General




Appendices




                                      Energy Employee Compensation
                   49                    Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                 50                    Report No.04-09-002-04-437
                                        U. S. Department of Labor – Office of Inspector General


                                                                                   Appendix A
Background

U.S. Nuclear Weapons Industry

Since World War II, the Department of Energy (DOE) and its predecessor agencies
have employed thousands of people in jobs related to the production of nuclear
weapons. Due to national security concerns related to the U.S. nuclear weapons
testing and production, the Federal government gave workers limited information about
the work. Many employees were unknowingly exposed to high levels of radiation and
dangerous substances such as uranium and beryllium, and may have not received
adequate protection.9 Between 1980 and 2000, more than two dozen scientific findings
showed that certain groups of employees who worked at DOE nuclear weapons
facilities had faced increased risks of dying from cancer and other diseases. Some
studies showed a correlation with the diseases and exposure to radiation and
beryllium.10

The Energy Employees Occupational Illness Compensation Program Act of 2000

Congress passed the Energy Employees Occupational Illness Compensation Program
Act of 2000 (EEOIPCA or Energy Employees Act) as Title XXXVI (Public Law 106-398)
of the Floyd D. Spencer National Defense Authorization Act for Fiscal Year 2001. The
president signed it into law on October 30, 2000. Congress’s intent was to provide
compensation to nuclear energy workers and their survivors for work-related illnesses.
Executive Order 13179, signed on December 7, 2000, assigned responsibilities to:

       The Secretary of Labor for administering and deciding all questions not assigned
       to other agencies, arising under the Act, including determining the eligibility of
       individuals and their survivors for compensation and benefits.

       The Secretary of Health and Human Services for arriving at and providing
       estimates of radiation doses received by individuals applying for assistance for
       whom there are inadequate records of radiation exposure; for considering and
       issuing determinations on petitions by classes of employees to be treated as
       members of the Special Exposure Cohort; and for providing the Advisory Board
       with administrative services, funds, facilities, staff, and other necessary support
       services.

       The Secretary of Energy for providing the Secretary of Health and Human
       Services and the Advisory Board on Radiation and Worker Health with access to
       all relevant information and other technical assistance needed to carry out the

9
  Executive Order 13179 — Providing Compensation to America's Nuclear Weapons Workers. December
7, 2000.
10
   Title 42. The Public Health and Welfare. Chapter 84. The Department of Energy. Subchapter XVI-
Energy Employees Occupational Illness Compensation Program. Part A – Establishment of
Compensation Program and Compensation Fund. (a) (5) and (6).

                                                                   Energy Employee Compensation
                                               51                     Report No.04-09-002-04-437
                                             U. S. Department of Labor – Office of Inspector General


          responsibilities; for requiring DOE contractors, subcontractors or designated
          beryllium vendor to provide information relevant to a claim.

          The Attorney General for notifying claimants or their survivor whose claim for
          compensation under section 5 of the Radiation Exposure Compensation Act
          (RECA) has been or is approved by the Department of Justice, of the available
          supplemental compensation and benefits under the Energy Employees
          Occupational Illness Compensation Program.

          Advisory Board on Radiation and Worker Health for advising the Secretary of
          Health and Human Services on scientific validity and quality of dose
          reconstruction efforts performed; for advising whether there is a class of
          employees at any Department of Energy facility who were exposed to radiation,
          but for whom it is not feasible to estimate their radiation dose; and for advising on
          whether there is a reasonable likelihood that such radiation dose may have
          endangered the health of members of the class.

Parts B and E

The Energy Employees Act of 2000 established Part B, which provided compensation
and benefits for beryllium, silicosis and radiation-related cancers. Part B provides a
lump sum payment of $150,000 and medical benefits to eligible workers (DOE
employees, contactors and subcontractors employees) who are ill due to exposure to
radiation, beryllium, or silica while working for the Department of Energy (DOE) in the
nuclear weapons industry. It also compensates employees’ survivors and offers
supplemental lump-sum payments of up to $50,000 to individuals already found eligible
for benefits for illnesses covered under Section 5 of the RECA, and, where applicable,
for their survivor.

The 2004 amendments to the Energy Employees Act abolished Part D, created Part E
and extended compensation to uranium workers, eligible under section 5 of RECA.11
Part E compensates covered DOE contractor, subcontractor employees, and uranium
workers who are diagnosed with an illness due to toxic exposures at DOE and AWE
facilities. Part E compensation pays benefits to employees based upon degree of
impairment and lost wages.

Administration

The Division of Energy Employees Occupational Illness Compensation (the Division),
within the Employment Standards Administration’s Office of Workers’ Compensation
Programs (OWCP), is responsible for administering the Energy Employees Act.

In FY 2007, the Division had 464 authorized full-time equivalent positions. The Division
contracts for operations of the 11 Resource Centers that conduct outreach and accept
EEOICPA claims applications. They are located in:
11
     Uranium workers as defined by RECA are miners, millers and ore transporters.

                                                                         Energy Employee Compensation
                                                    52                      Report No.04-09-002-04-437
                                       U. S. Department of Labor – Office of Inspector General



   •   Amherst, New York
   •   Espanola, New Mexico
   •   Idaho Falls, Idaho
   •   Las Vegas, Nevada
   •   Livermore, California
   •   North Augusta, South Carolina
   •   Oak Ridge, Tennessee
   •   Paducah, Kentucky
   •   Portsmouth, Ohio
   •   Richland, Washington
   •   Westminster, Colorado

The four District Offices (Cleveland, Ohio; Denver, Colorado; Jacksonville, Florida, and
Seattle, Washington) are responsible for claims development. The Division’s
Headquarters (Washington, D.C.) and each District Office house a Final Adjudication
Branch (FAB). The FAB is independent of the District Offices and validates the District
Offices’ recommended decisions before issuing final decisions.

Budget

The Division’s annual budget includes funds to support administrative operations at both
the Departments of Labor and Health and Human Services. The Division’s total
administrative budget for fiscal years 2006 and 2007 was as follows:

                            Operating Budget for DEEOIC
                      FY 2006 and FY 2007 (Dollars in thousands)

                         2006 (Actual)     2007 (Actual)      2008 Request
               DOL          $ 95,904            $115,621         $ 106,272
               HHS          $ 59,830            $ 54,836         $   55,358
               TOTAL       $155,674             $170,457         $ 161,630
              Source: Division of Energy Employees Occupational Illness Compensation




                                                                 Energy Employee Compensation
                                             53                     Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                 54                    Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our objectives were to answer the following questions:

   1. Did DOL issue claim decisions that complied with applicable law and regulations?

   2. Does DOL ensure that claims are adjudicated as promptly as possible and that
      claimants are kept informed?

The evaluation was performed in response to requests from Senator Charles Schumer (D-
NY) and Congressman C.W. “Bill” Young (R-FL) and inquiries from several members of
Congress and the public as to whether claims are appropriately adjudicated.

Scope

For Objective 1, our scope covered claims with decisions to accept or deny for
compensation and administratively closed claims for the period October 1, 2005,
through June 30, 2007. From the universe of 20,309 (Parts B and E) claims with
decisions to accept for compensation, 40,315 (Parts B and E) claims with decisions to
deny; and 8,886 (Parts B and E) claims administratively closed, we randomly selected
140 claims with decisions or administrative closures to test. We selected the most
recent decisions issued in order to review the controls and quality of the Division’s
decisions. We extracted information from the Division’s Energy Case Management
System (ECMS) by individual claim associated with a single worker. A worker
represents a case level that can have multiple associated claims with different
processing times and circumstances. For example, a worker may file a Part B and/or
Part E claim, or there may be multiple survivors (spouse, natural children, or adopted
children), each potentially representing a separate claim. Files were reviewed to
determine whether DOL issued claims that complied with applicable law and
regulations.

For Objective 2, our scope covered management’s processes to ensure that claims are
adjudicated as promptly as possible and claimants are kept informed. We focused on
timeliness goals established by the Division in their annual Operational Plan from FY
2004 through FY 2007, to include four Government Performance Review Act (GPRA)
timeliness goals and the actions taken to ensure that the goals were met. We used
ECMS management reports, as of July 1, 2007, that identified claims that were not
meeting the Operational Plan standards. The specific timeliness standards reviewed
were claims pending payment that were more than 60 days old (total of 123 claims),
Part E Backlog (formerly Part D) claims transferred to DOL in 2005 (total of 48 claims),
and claims that had received a recommended decision but had not been issued a final
decision within 60 days (total of 42 claims). We also reviewed 42 out of 4,109 claims
that had not received a decision prior to January 1, 2006, to determine why the claims
had not received a final decision.

                                                              Energy Employee Compensation
                                            55                   Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General


Our evaluation was conducted in accordance with Quality Standards for Inspections
published by the Presidents Council on Integrity and Efficiency.

Methodology

We designed our tests to include the 4 District Offices responsible for the development
and claims adjudication. We conducted field work at DEEOIC District Offices in
Cleveland, Ohio; Denver, Colorado; Jacksonville, Florida, and Seattle,
Washington. We also conducted field work at the National Office (HQ) in Washington,
D.C.

In planning and performing the evaluation, we relied on computer-generated data
maintained in ECMS. We determined that the data were sufficiently reliable. We tested
the data for completeness to verify that all claims in the scope of our review were
identified. Then we traced the claims’ status to source documents for those claims
included in our samples. We reported program statistics provided on the DOL web site
as of September 2, 2008, identifying the reasons claims were denied since program
inception to provide an overview of program operations.

To accomplish Objective 1, we requested claims information, by claimant, from the
Division’s ECMS. The number of claims totaled 69,510. We sampled 140 claims that
had received decisions using a stratified random sampling methodology and tested the
decisions on those claims to determine whether DOL had complied with law and
regulations. We did not project our results to the population. The population of claims
from which we randomly sampled is presented in the table below.

                        TYPE                     POPULATION SAMPLE

       Final Decision to Accept (FDA)             40,315                  45
       Final Decision to Deny (FDD)               20,309                  50
       Administrative Closure (AC)                  8,886                 45
       Totals                                     69,510                 140

To determine if claims were appropriately adjudicated, we reviewed evidence in files
used by claims examiners in the development of recommended decisions and by the
Final Adjudication Branch to issue final decisions. The evidence reviewed included:

   •   Employment and payroll records verifying DOE employment.
   •   Death certificates verifying survivor eligibility and cause of death (diagnosed
       illness).
   •   Marriage certificates verifying survivor eligibility.
   •   Doctor or pathology reports verifying the claimed illness.
   •   NIOSH dose reconstruction results showing that the diagnosed cancer was at
       least as likely as not caused by radiation exposure during DOE employment.

                                                              Energy Employee Compensation
                                           56                    Report No.04-09-002-04-437
                                       U. S. Department of Labor – Office of Inspector General


   •   Claimant reports of toxic exposures.
   •   Site Exposure Matrices results showing toxic exposures based on occupation,
       DOE facility, and whether there was a known causal link between the toxic
       exposure and the diagnosed illness.
   •   Industrial hygienist reports verifying whether toxic substances were present at
       DOE facilities.
   •   District Medical Examiner reports as to whether the exposure to toxic substances
       was at least as likely as not a contributing factor in aggravating, contributing to or
       causing the diagnosed illness.

We also discussed individual claims with program officials (claims examiners, senior
claims examiners, branch chiefs, hearing representatives, and senior leadership at the
FABs and District Offices) to verify the processes and questionable facts.

We interviewed key program officials and contractors, and reviewed program guidance
contained in the statute, regulations, and technical bulletins to develop an
understanding of the program. We reviewed claims assigned to the National Office and
4 District Offices and the Final Adjudication Branch for decision development.

We also reviewed claimant and Congressional correspondence in the Division’s
Secretary Information Management System to identify concerns and program issues.
We judgmentally reviewed 115 out of a 1,008 letters submitted to DOL from October 1,
2005, through March 30, 2007, to identify program-related issues.

In developing our test of internal controls, we interviewed program officials to identify
program controls implemented to ensure appropriate decisions. Multiple levels of
review were established based on the program structure. Each District Office was
comprised of units including claims examiners, senior claims examiners and section
leaders. Claims could receive at least 2 levels of review before the District Office issued
its recommended decision. Within the FAB, the claims examiner reviewed the claim
and recommended decision to validate them before the branch’s chief issues the final
decision. If the FAB identified facts that were not considered, the FAB has authority to
remand (return) the claim to the District Office for additional development. The FAB
also conducts a hearing at the request of the claimant to address disagreements or to
explain the findings. Based on the information provided by the claimant at the hearing,
the FAB could return the claim to the District Office for additional development. Program
guidance was issued in regulation, procedure manuals, and technical bulletins.

Using the stratified random sample of accepted and denied claims, we reviewed the
claims to determine if the claimants appealed recommended decisions and to determine
the outcome of the appeals. Using ECMS data, we identified the appealed claims,
reason for appeals, actions taken to review the claim based on the appeal, and the
decisions issued as a result of the appeal.




                                                                Energy Employee Compensation
                                             57                    Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


Using the stratified random sample of claims that were administratively closed, we
reviewed the claims to determine if the claim was delayed prior to the claimant’s death
and what DOL actions were taken to issue a decision.

We also selected a stratified random sample of 42 claims from a population of 4,109
claims in ECMS that had not received a decision prior to December 31, 2005. We
determined why a decision had not been issued if the Division had unduly delayed the
claim processing, and if the Division claimants were notified of DOL’s development
actions and the claim’s status. The sample was established using a 90 percent
confidence level, 10 percent precision, and a 10 percent expected error rate. The
sample was selected by unique claim number.

To address the allegations made by the former Seattle Claims examiner, a separate
inquiry was performed. The former claims examiner would not agree to a personal
interview, but provided the OIG with names of three claims examiners who supposedly
could support her allegations. We interviewed the three claims examiners, and seven
others that had worked with her. We also reviewed claims identified in the ECMS where
the claims examiner issued decisions or were identified in interviews the claims
examiner gave to news reporters. These decisions were developed by the claims
examiner between August and September 2007. We tested these decisions to
determine whether they were in accordance with laws and regulations and fully
documented in the case files.

To accomplish Objective 2, we identified the goals established in the Division’s annual
Operational Plans to ensure timely claims processing and actions taken as a result of
Quarterly Review and Analysis meetings addressing program execution. We obtained a
listing of management reports used to monitor the claims development process. Based
on available reports, we selected those identifying significant process points to identify
and determine why claims were or were not processed in accordance with the
timeliness goals. The areas selected for review were Part E backlog cases that were
transferred to the Division in FY 2004; claims with a recommended decision but no final
decision; and claims that had received a final decision to accept compensation
payment, but had not been paid. We did not validate the accuracy of the reports.

We judgmentally selected 213 individual claims from these reports that were 30 days
since a decision was issued and required further actions to complete the payment or
issue a final decision. We reviewed claim files and other documentation showing the
development actions taken. We interviewed claims examiners, fiscal officers, and
senior district officials to gain an understanding of the process, controls, and reports to
ensure timely and accurate processing. We validated the Division’s action to process
payments up to the point it sent payment information to the Department of Treasury for
disbursement.

We talked with program officials (claims examiners, senior claims examiners, branch
chiefs, hearing representatives, and senior leadership at the FABs and District Offices)



                                                               Energy Employee Compensation
                                             58                   Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


about individual claims to verify the processes and questionable facts. We reviewed the
following evidence:

   •   Notification of initial development letters
   •   Notification of recommended decisions
   •   Notification of final decisions
   •   Notification of dose reconstruction
   •   Notification of dose reconstruction results
   •   Correspondence requesting additional information to substantiate employment,
       the claimed illness, or survivor eligibility.

To determine whether claimants objected to decisions and the outcomes of those
objections, we reviewed the ECMS case data for the 95 claims (45 accepted and 50
denied) to determine if the claimant objected to a recommended decision, the type of
objection (request for review of the written record or request for a hearing), and the final
decision issued as a result of the adjudication process.

Criteria

Energy Employees Occupational Illness Compensation Act of 2000, as amended

Executive Order 13179, issued December 7, 2000; Providing Compensation to
America’s Nuclear Weapons Workers

20 CFR Parts 1 and 30, Performance of Functions; Claims for Employees Under the
Energy Employees Occupational Illness Compensation Act of 2000, as Amended; Final
Rule

42 CFR Part 82, Methods for Radiation Dose Reconstruction Under the Energy
Employees Occupational Illness Compensation Program Act of 2000; Final Rule

Division of Energy Employees Occupational Illness Compensation, Part B Procedure
Manual, dated September 2004

Division of Energy Employees Occupational Illness Compensation, Part E Procedure
Manual, dated September 2005

Energy Employees Occupational Illness Compensation Program Final Bulletins 2002
through 2007




                                                               Energy Employee Compensation
                                             59                   Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                 60                    Report No.04-09-002-04-437
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix C
Acronyms and Abbreviations


CBD                     Chronic Beryllium Disease
CBS                     Chronic Beryllium Sensitivity
CE                      Claims Examiner
CFR                     Code of Federal Regulations
COPD                    Chronic Obstructive Pulmonary Disease
DEEOIC                  Division of Energy Employees Occupational Illness
                        Compensation
DOL                     Department of Labor
DMC                     District Medical Consultant
DO                      District Office
DOE                     U.S. Department of Energy
DOJ                     U.S. Department of Justice
DR                      Dose Reconstruction
ECMS                    Energy Case Management System
EEOICPA                 Energy Employees Occupational Illness
                           Compensation Program Act
ESA                     Employment Standards Administration
FAB                     Final Adjudication Branch
FD                      Final Decision
GPRA                    Government Performance Review Act
HHS                     U.S. Department of Health and Human Services
IH                      Industrial Hygienist
NIOSH                   National Institute for Occupational Safety and Health
NO                      National Office
OIG                     Office of Inspector General
OWCP                    Office of Workers’ Compensation Programs
ORISE                   Oak Ridge Institute of Science and Education
RC                      Resource Center
RD                      Recommended Decision
RECA                    Radiation Exposure Compensation Act
SEC                     Special Exposure Cohort
SEM                     Site Exposure Matrix
SSA                     Social Security Administration
USC                     U. S. Code




                                                        Energy Employee Compensation
                                     61                    Report No.04-09-002-04-437
           U. S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                                    Energy Employee Compensation
                 62                    Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


                                                                               Appendix D
Glossary of Terms

Adjudication – Final processes for DEEOIC to review the Energy Employees Act
claims and issue the recommended and final decision to approve or deny compensation
and/or medical benefits.

Advisory Board on Radiation and Worker Health – Presidentially-appointed body
that advises the Secretary of Health and Human Services on dose reconstruction issues
and approval of petitions for certain classes of DOE workers to be designated as a
Special Exposure Cohort.

Beryllium - A naturally-occurring light, hard, silver-gray metal used in the production of
weapons and reactors. Beryllium’s toxic dusts and fumes may produce an immune
response known as “sensitization” that can be detected in the blood.

Beryllium sensitivity - An immune system allergic reaction to the presence of beryllium
in the body as the result of inhaling beryllium dust particles or fumes.

Chronic Beryllium Disease - A pulmonary disorder in which granulomatous
inflammation develops after exposure and subsequent sensitization to beryllium. The
lungs and thoracic lymph nodes are the primary sites involved.

Claims development – DEEOIC District Offices’ process of collecting and reviewing
information and evidence related to employment, worksite exposure, medical diagnosis,
and related conditions to support an individual’s claim under the Energy Employees Act.

Claimant – An employee or survivor who applies for Energy Employees Act benefits.

Dose reconstruction – A scientific estimate of the amount of occupational radiation to
which DOE workers were exposed. NIOSH uses available worker and/or workplace
monitoring information. In cases where radiation exposures are not available, default
values based on reasonable scientific assumptions are used as substitutes that err on
the side of overestimating exposures.

Covered facilities – There are 365 facilities listed in the Federal Register (Vol. 69; No.
162) as covered facilities which are approved DOE, Office of Health, Safety, and
Security as authorized facilities.

District Medical Consultant – Physicians under contract with DEEOIC to help
determine if there is a link between toxic exposures and claimed illnesses.

Division of Energy Employees Occupational Illness (The Division) – A division
within the Office of Workers’ Compensation Programs (OWCP), which is responsible for
administering the Energy Employees Act.



                                                               Energy Employee Compensation
                                            63                    Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


Energy Employees Occupational Illness Compensation Program Act (Energy
Employees Act) – Federal law passed in 2000 and amended in 2004 that provides
compensation and medical benefits to eligible DOE workers and contractor employees
who developed cancer or other debilitating illnesses due to exposure to radiation and
other toxic materials while engaged in nuclear weapons production. Eligible survivors
may receive compensation.

Final Adjudication Branch (FAB) – A National Office organization with District Office
locations in: Jacksonville, Florida; Cleveland, Ohio; Denver, Colorado; and Seattle,
Washington. The National Office FAB is located in Washington, D.C. The FAB Chief is
located in the Washington, D.C. office and oversees the operations of the NO FAB and
the four FAB offices co-located with the Districts. The FAB issues final decisions on
Energy Employees Act claims.

Final decision – This is the decision of the Final Adjudication Branch (a separate entity
within the DOL’s Office of Workers’ Compensation Programs). The regulation
governing the implementation of the Energy Employees Act specifies that all
recommended decisions are to be forwarded to the Final Adjudication Branch for
issuance of the final decision. The regulation allows claimants to object to all or part of
the recommended decision within 60 days from the date the decision is issued. The
FAB is required to consider all timely filed objections to the recommended decisions and
if requested, conduct a hearing. Regardless of whether or not an objection is filed, the
FAB must review all recommended decisions, all arguments and evidence of record,
and then issues a final decision. A Final Decision can then be appealed to the U.S.
District Courts.

Government Performance and Results Act (GPRA) – Federal law, passed by
Congress in 1993, requires Federal programs to annually set performance targets and
report whether or not they were achieved.

Hearing – A formal hearing conducted at the request of the claimant to object to the
recommended decision, or a claimant request for a review of the written record before a
final decision is issued by the FAB. The FAB will review the written record, the
claimant’s objection, and any additional evidence submitted, to determine whether or
not the DO findings should be accepted. Once this review is complete, the FAB issues
a final decision.

Industrial Hygienist – A professionally trained person who can identify, evaluate,
prevent and control environmental factors from the workplace, which may cause
sickness or impaired health. In reviewing Part E claims, Division uses certified industrial
hygienists, claimant’s treating physician, certified toxicologist, and web-based
information on relationship between illnesses and toxic substances.

Oak Ridge Institute of Science and Education (ORISE) – Institute managed for the
U.S. Department of Energy by Oak Ridge Associated Universities. ORISE maintains a
Human Studies Research Database with information covering more than 400,000 DOE


                                                               Energy Employee Compensation
                                            64                    Report No.04-09-002-04-437
                                      U. S. Department of Labor – Office of Inspector General


employees from the 1940’s until the early 1990’s. DEEOIC Resource Centers use the
database to verify employment for some Energy Employees Act claimants.

Probability of causation (POC) – The determination, made by the DEEOIC, of
whether or not the employee’s cancer was at least as likely as not related to
employment at the work site. DEEOIC reviews various types of information to make the
determination, including the type of cancer, the energy employee’s age, the year the
cancer was diagnosed, and the type and level of radiation to which the energy
employee was exposed. For those claims with radiation related cancer, DOL uses the
Interactive Radio Epidemiological Program to interpret the NIOSH dose reconstruction
results.

Radiation Exposure Compensation Act (RECA) – Law passed by Congress in 1990
that provides compensation to individuals who contracted certain cancers due to their
exposure to radiation released during above-ground nuclear weapons tests or as a
result of their exposure to radiation during employment in underground uranium mines.
The Department of Justice adjudicates claims under RECA.

Recommended decision – District Office’s proposed acceptance or denial of Energy
Employees Act claim for benefits. District Office sends all recommended decisions to
the Final Adjudication Branch (FAB) for review and notifies the claimant of the action.

Remand – During the adjudication process, the FAB may return the case to the District
Office and request additional information or evidence to support the claimant’s eligibility.

Resource Center (RC) – One of 11 contractor-operated facilities administered by the
DEEOIC which help claimants file for benefits under the Energy Employees Act. The
RCs help claimants obtain required information and documentation and forwards
applications to DEEOIC District Offices.

Silicosis – Illness resulting from long-term exposure (more than 20 years) to low silica
dust. The dust causes swelling in the lungs and chest lymph nodes and may obstruct
breathing.

Site Exposure Matrix (SEM) – A database on toxic substances present at DOE and
RECA sites covered under Energy Employees Act Part E. The database is available on
the Internet (www.sem.dol.gov). This website also has information on scientifically
established links between toxic substances and recognized occupational illnesses.
DOL uses the SEM in conjunction with information from the claimant’s treating
physician, certified toxicologist, industrial hygienist and other web-based information to
establish relationships between illness and toxic substances in determining if the illness
was a result of exposure to radiation or toxic substances during DOE employment.

Site Profile – A document prepared by NIOSH with information on DOE facilities’
activities and radiation protection practices. NIOSH uses site profiles to “evaluate the
personal and site specific data for each case” it receives from DEEOIC.


                                                               Energy Employee Compensation
                                             65                   Report No.04-09-002-04-437
                                     U. S. Department of Labor – Office of Inspector General



Special Exposure Cohort (SEC) – A presidentially-approved class of employees at
any DOE facility whose Energy Employees Act claims can be compensated without
dose reconstruction or determination of the probability of causation because insufficient
recorded data exists on radiation exposures at the DOE or AWE facilities where they
worked. SEC members must be diagnosed with at least one of 22 specified cancers
and have worked at one of the approved SEC work sites. NIOSH reviews SEC
petitions.

Survivor Eligibility – Criteria used to determine if an individual may lawfully receive
compensation benefits for an individual who filed for benefits under Part B or E of the
Energy Employees Act. Under Part B, survivor eligibility is determined at the time of
compensation payment. Survivorship under Part E is determined at the time of the
covered employee’s death.




                                                              Energy Employee Compensation
                                            66                   Report No.04-09-002-04-437
                                  U. S. Department of Labor – Office of Inspector General


                                                                           Appendix E
Agency Response to Draft Report




                                                           Energy Employee Compensation
                                        67                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      68                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      69                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      70                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      71                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      72                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      73                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      74                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      75                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      76                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      77                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      78                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      79                    Report No.04-09-002-04-437
U. S. Department of Labor – Office of Inspector General




                         Energy Employee Compensation
      80                    Report No.04-09-002-04-437
                               U. S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210




                                                        Energy Employee Compensation
                                     81                    Report No.04-09-002-04-437
